APPENDIX

1a
APPENDIX A
IN THE UNITED STATES
COURT OF APPEALS
FOR THE FIFTH CIRCUIT
[Filed June 17, 2019]
————
No. 17-10663
————
SECURITIES AND EXCHANGE COMMISSION
Plaintiff,
v.
STANFORD INTERNATIONAL BANK, LIMITED
Defendant
v.
JOSEPH BECKER; TERENCE BEVEN; WANDA BEVIS;
THOMAS EDDIE BOWDEN; TROY L. LILLIE, JR., et al
Movants-Appellants
DOUG MCDANIEL; SCOTT NOTOWICH;
EDDIE ROLLINS; CORDELL HAYMON; et al,
Objecting Parties-Appellants
v.
CERTAIN UNDERWRITERS AT LLOYD’S OF LONDON;
ARCH SPECIALTY INSURANCE COMPANY;
LEXINGTON INSURANCE COMPANY,
Interested Parties-Appellees
RALPH S. JANVEY,
Appellee
————

2a
CERTAIN UNDERWRITERS AT LLOYD’S OF LONDON;
ARCH SPECIALTY INSURANCE COMPANY,
Plaintiffs-Appellees
v.
RALPH S. JANVEY, In his Capacity as Court
Appointed Receiver for Stanford International
Bank Limited, Stanford Group Company, Stanford
Capital Managment L.L.C., Stanford Financial
Group, and Stanford Financial Group Bldg,
Defendant-Appellee
v.
CORDELL HAYMON,
Intervenor-Appellant
————
CERTAIN UNDERWRITERS AT LLOYD’S OF LONDON;
ARCH SPECIALTY INSURANCE COMPANY;
LEXINGTON INSURANCE COMPANY,
Plaintiffs-Appellees
v.
CORDELL HAYMON,
Objecting Party-Appellant
v.
RALPH S. JANVEY,
Intervenor-Appellee
————

3a
CERTAIN UNDERWRITERS AT LLOYD’S OF LONDON;
ARCH SPECIALTY INSURANCE COMPANY;
LEXINGTON INSURANCE COMPANY,
Plaintiffs-Appellees
v.
RALPH S. JANVEY,
Intervenor Defendant-Appellee
v.
CORDELL HAYMON,
Objecting Party-Appellant
————
CORDELL HAYMON,
Third Party Plaintiff-Appellant
v.
CERTAIN UNDERWRITERS OF LLOYD’S OF LONDON,
Claims asserted by Claude F. Reynaud, Jr.
Third Party Defendant-Appellee
v.
RALPH S. JANVEY,
Appellee
————
Appeals from the United States District Court
for the Northern District of Texas
————
Before JONES, CLEMENT, and SOUTHWICK,
Circuit Judges.
EDITH H. JONES, Circuit Judge:
These appeals challenge the district court’s approval
of a global settlement between Ralph Janvey, the

4a
Receiver for Stanford International Bank and related
entities, and various insurance company Underwriters, who issued policies providing coverage for fidelity
breaches, professional indemnity, directors and officers protection, and excess losses. The settlement yielded $65 million for the Receiver’s claims against the
insurance policy proceeds, but it wipes out, through
“bar orders,” claims by coinsureds to the policy proceeds and their extracontractual claims against the
Underwriters even if such claims would not reduce or
affect the policies’ coverage limits. Among the parties
whose claims were barred are Appellants comprising
(a) two groups of former Stanford managers and employees; (b) Cordell Haymon, a Stanford entity director
who settled with the Receiver for $2 million; and (c) a
group of Louisiana retiree-investors.
A constellation of issues surrounding the global
settlement is encapsulated in the question whether
the district court abused its discretion in approving
the settlement and bar orders. Based on the nature of
in rem jurisdiction and the limitations on the court’s
and Receiver’s equitable power, we conclude the district court lacked authority to approve the Receiver’s
settlement to the extent it (a) nullified the coinsureds’
claims to the policy proceeds without an alternative
compensation scheme; (b) released claims the Estate
did not possess; and (c) barred suits that could not
result in judgments against proceeds of the Underwriters’ policies or other receivership assets. Accordingly, we VACATE the district court’s order approving
the settlement and bar orders and REMAND for
further proceedings consistent with this opinion.
BACKGROUND
The massive Stanford Financial Ponzi scheme
defrauded more than 18,000 investors who collectively

5a
lost over $5 billion. As part of a securities fraud
lawsuit brought by the SEC, the district court
appointed the Receiver “to immediately take and have
complete and exclusive control” of the receivership
estate and “any assets traceable” to it. The court granted the Receiver “the full power of an equity receiver
under common law,” including the right to assert claims
against third parties and “persons or entities who
received assets or records traceable to the Receivership Estate.” SEC v. Stanford Int’l Bank, Ltd., 776 F.
Supp. 2d 323, 326 (N.D. Tex. 2011). The district court
also held that the court possessed exclusive jurisdiction over a group of insurance policies and their proceeds, at issue in this case, and ruled that, other than
a lawsuit involving the Stanford criminal defendants,
“[n]o persons or entities may bring further claims
related to the [Proceeds] in any forum other than” the
district court. Neither of these latter two orders was
timely appealed.
The policies issued to the Stanford entities covered,
in different arrangements, losses and defense costs for
the entities and their officers, directors and certain
employees. At issue are the following policies: a Directors’ and Officers’ Liability and Company Indemnity
Policy (“D&O”); a Financial Institutions Crime and
Professional Indemnity Policy, including (a) firstparty fidelity coverage for employee theft (“Fidelity
Bond”) and “[l]oss resulting directly from dishonest,
malicious or fraudulent acts committed by an
Employee,” and (b) third-party coverage for professional indemnity (“PI Policy”); and an Excess Blended
“Wrap” Policy (“Excess Policy”). The policy limits are
as follows:

6a
Stanford Bank
Entities

D&O Policy
PI Policy

Fidelity Bond

Excess Policy

Stanford
Brokerage
Entities
$5 million
$5 million
$5 million per
$5 million per
Claim
Claim
$10 million
$10 million
aggregate
aggregate
$5 million per
$5 million per
Loss
Loss
$10 million
$10 million
aggregate
aggregate
$45 million each Claim or Loss/
$90 million aggregate

The maximum amount of remaining coverage is
disputed. According to the district court, the Underwriters have paid some $30 million in claims under the
policies for insureds’ defense costs. Underwriters contend that only $46 million remains available because
the losses resulted from a single event – the Ponzi
scheme. The Receiver argues that the conduct implicates the aggregate loss limits up to $101 million of
remaining coverage. The questions of coverage ultimately depend on the identity of the insureds under
each policy and the nature of the claims, and these
issues are hotly contested. The Stanford corporate
entities are insured under all of the policies, but
Stanford directors, officers, and employees are coinsureds only under the D&O, PI, and Excess policies.1
Each policy is subject to multiple definitions and
1

There is no dispute that the Appellants here are coinsured
under the noted policies, but not coinsured under the Fidelity
bond. The chief dispute is about the effect of certain limitations
and exclusions within the policies.

7a
exclusions. After the Receiver made numerous claims
for coverage under the policies (the “Direct Claims”)
that were met with Underwriters’ denial based on
policy exclusions, several lawsuits ensued.
The Receiver also pursued the policy proceeds
indirectly by filing lawsuits (the “Indirect Claims”)
against hundreds of former Stanford directors, officers, and employees, alleging fraudulent transfers and
unjust enrichment and/or breach of fiduciary duty.
The Receiver obtained a $2 billion judgment against
one former Stanford International Bank director and
a $57 million judgment against a former Bank treasurer, both of whom were potentially covered under the
policies. The Receiver continues to litigate similar
claims against the coinsured Appellants who were
Stanford managers and employees. See, e.g., Stanford
International Bank, Ltd., et al., v. James R. Alguire, et
al., No. 3:09-CV-0724-N (N.D. Tex., filed Dec. 18,
2019).
After eight years of sparring, the Receiver and
Underwriters, together with the court-appointed
Examiner on behalf of Stanford investors, mediated
their disputes for several months in 2015. Mediation
initially resulted in a Settlement Proposal under
which the Underwriters agreed to pay the Receiver
$65 million, and in return the Receiver would “fully
release any and all insureds under the relevant
policies.” The purpose of the complete release was to
shield the Underwriters from any policy obligations to
defend or indemnify former Stanford personnel,
including the employee Appellants, in the Receiver’s
Indirect Claim lawsuits. The parties almost immediately disagreed about the content of the settlement,
however, and the Underwriters filed an Expedited
Motion to Enforce the Settlement Agreement. The

8a
district court denied the motion and instructed the
parties to continue negotiating. On June 27, 2016, the
Receiver and Underwriters notified the court that they
had entered into a new settlement agreement, which
the Examiner supported.
Under this new settlement, the Underwriters again
agreed to pay $65 million into the receivership estate,
but the settlement required orders barring all actions
against Underwriters relating to the policies or the
Stanford Entities. Paragraph 35 of the settlement
provides Underwriters the unqualified right to withdraw from the settlement if the court refuses to issue
the bar orders. The bar orders were necessary because,
unlike the terms of the first proposed settlement, the
Receiver is required to release only the Estate’s claims
against 16 directors and officers (rather than all
insureds), as well as the judgments already obtained
against certain directors and officers.2 All other former
Stanford employees, officers and directors, including
Appellants, remain subject to ongoing or potential
litigation by the Receiver once the litigation stay
against them is lifted. Some Appellants assert that
their individual costs of defending the Receiver’s
ongoing actions already exceed $10,000. But the bar
orders prevent them from suing the Underwriters for
their costs of defense and indemnity under the insurance policies, even though they are coinsured, or for
extra-contractual or statutory claims.

2

Oddly, the settlement releases claims only against those
directors and officers who were among the most culpable for the
Ponzi scheme. And it releases Underwriters from any obligation
in connection with the aforementioned judgments for $2 billion
and $57 million. This oddity should have been considered when
assessing the fairness of the settlement.

9a
The Receiver moved for approval of the settlement
and entry of the bar orders. The district court directed
notice to all interested parties, and received objections
from several third parties, including Appellants. The
court heard arguments of counsel regarding the settlement, but it refused to allow parties to offer evidence
or live testimony or engage in cross-examination. After
the hearing, parties were permitted to file additional
declarations or affidavits.
The district court approved the settlement and bar
orders, denied all objections, and approved the payment of $14 million of attorney fees to Receiver’s
counsel. Separate Final Judgments and Bar Orders
were entered in each action pending before it relating
to the Stanford Entities and in Appellant Haymon’s
and Appellant Alvarado’s separate lawsuits against
the Underwriters. The district court rejected all posttrial motions.
A more complete discussion of the court’s findings
will follow, but in general, the court found that the
settlement resulted from “vigorous, good faith, arm’slength, mediated negotiations” and concluded that the
settlement was “in all respects, fair, reasonable, and
adequate, and in the best interests of all Persons
claiming an interest in, having authority over, or
asserting a claim against Underwriters, Underwriters’
Insureds, the Stanford Entities, the Receiver, or the
Receivership Estate.” The court further found that the
settlement and bar orders were “fair, just, and equitable,” and it rejected the Appellants’ due process claims
based on their exclusion from settlement talks and the
lack of an evidentiary hearing. While the court recognized that the bar orders discriminate between a few
Stanford officers and the Appellants, it reasoned that
“on balance the unfairness alleged by the Objectors is

10a
either mitigated by other circumstances or simply
outweighed by the benefit of the settlement in terms
of fairness, equity, reasonableness, and the best
interests of the receivership.”
The Appellants fall into three categories. The
McDaniel Appellants and “Alvarado”3 Appellants are
former Stanford managers or employees from offices
around the country (“Employees”) who seek contractual coverage under the insurance policies and press
extra-contractual claims against the Underwriters,
including for bad faith and statutory violations of the
Texas Insurance Code. Appellant Cordell Haymon
(“Haymon”) was a member of Stanford Trust Company’s Board of Directors who settled the Receiver’s
claims against him for $2 million before the instant
global settlement was reached, and in return received
the express right to pursue Underwriters for policy
coverage and extra-contractual claims. Finally, the
Louisiana Retirees/Becker Appellants (“Retirees”) are
former Stanford investors who sued Stanford brokers
covered by the insurance policies and seek to recover
from the Underwriters directly pursuant to the
Louisiana Direct Action Statute, La. Rev. Stat.
22:1269.
Each group of Appellants raises different challenges
to the court’s approval of the settlement and bar
orders. They appeal from the district court’s order
denying their objections to the proposed settlement,
the Final Bar Order, and the Order Approving

3

While Alvarado was originally a party to this appeal, he
withdrew his individual appeal on April 19, 2018. The other
employees to that action remain as appellants and will be
denominated, for the sake of convenience, Alvarado Appellants.

11a
Attorneys’ Fees for the Receiver’s counsel. The
Stanford Employees additionally appeal the Order
denying their new trial motion, and Haymon appeals
from the Order denying his motion for reconsideration.
After explaining the principles that govern the court’s
management of the Receivership, we will analyze each
set of Appellants’ objections.
4

STANDARD OF REVIEW
A district court’s entry of a bar order, like other
actions in supervising an equity receivership, is
reviewed for abuse of discretion. SEC v. Safety Fin.
Serv., Inc., 674 F.2d 368, 373 (5th Cir. 1982); Newby v.
Enron Corp., 542 F.3d 463, 468 (5th Cir. 2008). A
district court’s determination of the fairness of a settlement in an equity receivership proceeding is reviewed
for an abuse of discretion. Sterling v. Stewart, 158 F.3d
1199, 1202 (11th Cir. 1998) (“Determining the fairness
of the settlement [in an equity receivership] is left to
the sound discretion of the trial court and we will not
overturn the court’s decision absent a clear showing of
abuse of that discretion.”). There is no abuse of discretion where factual findings are not clearly erroneous
and rulings are without legal error. Marlin v. Moody
Nat. Bank, N.A., 533 F.3d 374, 377 (5th Cir. 2008). A
district court’s denial of a Rule 59 motion for a new
trial or to alter or amend a judgment also is reviewed
for an abuse of discretion. St. Paul Mercury Ins. Co. v.
Fair Grounds Corp., 123 F.3d 336, 339 (5th Cir. 1997).
This Court reviews de novo a district court’s application of exceptions to the Anti–Injunction Act as a
4

The amount and propriety of the Receiver’s very high fee
request is not substantively briefed by any party and is therefore
waived, except to the extent that on remand the fee ought to be
reconsidered in light of this opinion.

12a
question of law. Moore v. State Farm Fire & Cas. Co.,
556 F.3d 264, 269 (5th Cir. 2009).
DISCUSSION
I. General Receivership Principles
A district court has broad authority to place assets
into receivership “to preserve and protect the property
pending its final disposition.” Gordon v. Washington,
295 U.S. 30, 37, 55 S. Ct. 584 (1935); see also Gilchrist
v. Gen. Elec. Capital Corp., 262 F.3d 295, 302 (4th Cir.
2001) (“the district court has within its equity power
the authority to appoint receivers and to administer
receiverships”) (citing Fed. R. Civ. P. 66). The primary
purpose of the equitable receivership is the marshaling of the estate’s assets for the benefit of aggrieved
investors and other creditors of the receivership entities. See SEC v. Hardy, 803 F.2d 1034, 1038 (9th Cir.
1986). Receivers appointed by a federal court are
directed to “manage and operate” the receivership
estate “according to the requirements of the valid laws
of the State in which such property is situated, in the
same manner that the owner or possessor thereof
would be bound to do if in possession thereof.” 28
U.S.C. § 959(b).
In general, the Receiver has wide powers to acquire,
organize and distribute the property of the receivership. A properly appointed receiver is “vested with
complete jurisdiction and control of all [receivership]
property with the right to take possession thereof.” 28
U.S.C. § 754. The Receiver is obliged to allocate
receivership assets among the competing claimants
according to their respective rights and, in this case,
under the laws of Texas, where the Stanford Financial
Group was headquartered. The district court ruled, in
a 2009 order that was not appealed, that the insurance

13a
policies and proceeds are property of the estate subject
to the court’s exclusive in rem jurisdiction.
Once assets have been placed in receivership, “[i]t is
a recognized principle of law that the district court has
broad powers and wide discretion to determine the
appropriate relief in an equity receivership.” Safety
Fin., 674 F.2d at 372–73 (citing SEC v. Lincoln Thrift
Assoc., 577 F.2d 600, 606 (9th Cir. 1978)). This
discretion derives not only from the statutory grant of
power, but also the court’s equitable power to fashion
appropriate remedies as “ancillary relief” measures.
See SEC v. Wencke, 622 F.2d 1363, 1369 (9th Cir.
1980). Courts have accordingly exercised their discretion to issue bar orders to prevent parties from
initiating or continuing lawsuits that would dissipate
receivership assets or otherwise interfere with the
collection and distribution of the assets. See SEC v.
Stanford Int’l Bank Ltd., 424 F. App’x 338, 340 (5th
Cir. 2011) (“It is axiomatic that a district court has
broad authority to issue blanket stays of litigation to
preserve the property placed in receivership pursuant
to SEC actions.”). Receivership courts, like bankruptcy
courts, may also exercise discretion to approve settlements of disputed claims to receivership assets, provided that the settlements are “fair and equitable and
in the best interests of the estate.” Ritchie Capital
Mgmt., L.L.C. v. Kelley, 785 F.3d 273, 278 (8th Cir.
2015) (citing Tri–State Fin., LLC v. Lovald, 525 F.3d
649, 654 (8th Cir. 2008)).
Neither a receiver’s nor a receivership court’s power
is unlimited, however. See Whitcomb v. Chavis, 403
U.S. 124, 161, 91 S. Ct. 1858, 1878 (1971) (“The remedial powers of an equity court must be adequate to the
task, but they are not unlimited.”). Courts often look
to the related context of bankruptcy when deciding

14a
cases involving receivership estates. The district court
here acknowledged that the purpose of bankruptcy
receiverships and equity receiverships is “essentially
the same—to marshal assets, preserve value, equally
distribute to creditors, and, either reorganize, if possible, or orderly liquidate.” Janvey v. Alquire, No. 3:09cv-0724, 2014 WL 12654910, at *17 (N.D. Tex. July 30,
2014); see also SEC v. Wealth Mgmt. LLC, 628 F.3d
323, 334 (7th Cir. 2010) (“The goal in both securitiesfraud receiverships and liquidation bankruptcy is
identical—the fair distribution of the liquidated
assets”). That their purpose is the same “makes sense”
and reflects their shared legal heritage, since “federal
equity receiverships were the predecessor to Chapter
7 liquidations and Chapter 11 reorganizations.”
Alquire, 2014 WL 12654910, at *17 (citing Duparquet
Huot & Moneuse Co. v. Evans, 297 U.S. 216, 221, 56 S.
Ct. 412, 414 (1936)). The district court also recognized
that “[i]n this particular case, the purpose and objectives of the receivership, as delineated in the Receivership Order, closely reflect the general purpose shared
by the Bankruptcy Code and federal equity receiverships,” and it concluded that “[u]ltimately, this particular receivership is the essential equivalent of a
Chapter 7 bankruptcy.” Id. at *18.
Unfortunately, two interrelated limitations on the
Stanford receivership were downplayed by the district
court in its approval of the settlement and bar orders.
Both derive from the broader principle that the receiver
collects and distributes only assets of the entity in
receivership. The first applies to the Receiver’s
standing: “[l]ike a trustee in bankruptcy or for that
matter the plaintiff in a derivative suit, an equity
receiver may sue only to redress injuries to the entity
in receivership, corresponding to the debtor in bankruptcy and the corporation of which the plaintiffs are

15a
shareholders in the derivative suit.” Scholes v.
Lehmann, 56 F.3d 750, 753 (7th Cir. 1995) (emphasis
added) (citing, inter alia, Caplin v. Marine Midland
Grace Trust Co., 406 U.S. 416, 92 S. Ct. 1678 (1972)).
The Scholes case involved an SEC receivership, but
Caplin, on which it relied, was a Supreme Court decision in a Chapter X reorganization case. This court
endorsed the Scholes limitation as applied to this
receivership in Janvey v. Democratic Senatorial
Campaign Comm., Inc. (“DSCC”), 712 F.3d 185, 190–
93 (5th Cir. 2013). And following Caplin, a sister
circuit held, “a trustee, who lacks standing to assert
the claims of creditors, equally lacks standing to settle
them.” DSQ Prop. Co., Ltd. v. DeLorean, 891 F.2d 128,
131 (6th Cir. 1989); see also Wuliger v. Mfr’s. Life Ins.
Co., 567 F.3d 787, 794 (6th Cir. 2009) (“Because the
receivership entities all would have lacked standing,
and because of the rule that receivers’ rights are
limited to those of the receivership entities, the
Receiver also lacked standing [to sue for misrepresentations by brokers to defrauded investors].”).
The second limitation, arising from the district
court’s in rem jurisdiction, is that the court may not
exercise unbridled authority over assets belonging to
third parties to which the receivership estate has no
claim. Put another way, in the course of administering
this receivership, this district court previously rejected
a broad reading of 28 U.S.C. § 754 that suggested the
court’s in rem jurisdiction over the property would
necessarily reach every claim relating to that property. See Rishmague v. Winter, No. 3:11-cv-2024-N,
2014 WL 11633690, at *2 (N.D. Tex. Sept. 9, 2014).
Thus, this court and others have held that a
bankruptcy court may not authorize a debtor to enter
into a settlement with liability insurers that enjoins

16a
independent third-party claims against the insurers.
See, e.g., Matter of Zale Corp., 62 F.3d 746 (5th Cir.
1995) (refusing to countenance a bankruptcy court’s
authority to enforce a settlement prohibiting thirdparty bad faith insurance claims because the claims
were not property of the bankruptcy estate). Similarly,
“if [the coinsureds’] portion of the [insurance] Proceeds
is truly not property of the Estate, then the bankruptcy court has no authority to enjoin suits against
the [coinsureds].” In re Vitek, 51 F.3d 530, 536 (5th Cir.
1995); see also In re SportStuff, Inc., 430 B.R. 170, 175
(B.A.P. 8th Cir. 2010) (bankruptcy court lacked jurisdiction or authority to impair or extinguish independent contractual rights of vendors that were additional
insureds under the debtor’s policies). As these cases
illustrate, bankruptcy courts lack “jurisdiction” to
enjoin such claims.
The prohibition on enjoining unrelated, third-party
claims without the third parties’ consent does not
depend on the Bankruptcy Code, but is a maxim of law
not abrogated by the district court’s equitable power to
fashion ancillary relief measures. Contrary to the
Receiver’s assertion, the fact that the bankruptcy
statute, 28 U.S.C. § 1334(b), limits jurisdiction to proceedings “arising in or related to” bankruptcy cases
does not diminish the application of Zale or Vitek to
equity receiverships. As noted, bankruptcy and equity
receiverships share common legal roots.5 See In re

5

Modern bankruptcy reorganization law originated with Section 77B of the Bankruptcy Act of 1934, the purpose of which was
to codify best practices in what had formerly been known as
equity receiverships. See Duparquet Huot & Moneuse Co. v.
Evans, 297 U.S. 216, 222–24, 56 S. Ct. 412, 415–17 (1936).
Section 77B(a), in turn, stated that the bankruptcy court’s powers
are those “which a Federal court would have had it appointed a

17a
Davis, 730 F.2d 176, 183–84 (5th Cir. 1984) (the
Bankruptcy Code arms bankruptcy courts with broad
powers analogous to a court in equity). Moreover, to
justify its decision denying bankruptcy court jurisdiction over third-party claims, the court in Zale quoted
the Supreme Court in a civil rights class action case:
“[o]f course, parties who choose to resolve litigation
through settlement may not dispose of the claims of a
third party, and a fortiori may not impose duties or
obligations on a third party, without that party’s agreement. A court’s approval of a consent decree between
some of the parties therefore cannot dispose of the
valid claims of nonconsenting intervenors . . . .” Zale,
62 F.3d at 757 n.26 (citing Local No. 93 v. City of
Cleveland, 478 U.S. 501, 529, 106 S. Ct. 3063, 3079,
(1986)).6 All of this makes clear that it is not the
subject matter or statutory limitations driving this
limitation, and federal district courts have no greater
authority in equity receiverships to ignore these bedrock propositions, because a “court in equity may not
do that which the law forbids.” United States v.
receiver in equity of the property of the debtor . . . .” Id. at 221, 56
S. Ct. at 415.
6

Local No. 93 is merely one example of the Supreme Court’s
rejection of the use of consent decrees to extinguish the claims of
non-consenting third-parties, for “[a] voluntary settlement in the
form of a consent decree between one [party] and [another party]
cannot possibly ‘settle,’ voluntarily or otherwise, the conflicting
claims of another group of [parties] who do not join in the agreement. This is true even if the second group of [parties] is a party
to the litigation.” Martin v. Wilks, 490 U.S. 755, 755–68, 109 S.
Ct. 2180, 2181–88 (1989). Indeed, “[a]ll agree” that “[i]t is a
principle of general application in Anglo-American jurisprudence
that one is not bound by a judgment in personam in a litigation
in which he is not designated as a party or to which he has not
been made a party by service of process.” Id. (citing Hansberry v.
Lee, 311 U.S. 32, 40, 61 S. Ct. 115, 117 (1940)).

18a
Coastal Ref. & Mktg., Inc., 911 F.2d 1036, 1043 (5th
Cir. 1990).
Rather than reckon with the limits on the Receiver’s
standing and the court’s equitable power, the district
court here cited an unpublished Fifth Circuit case,
SEC v. Kaleta, No. 4:09-cv-3674, 2012 WL 401069, at
*4 (S.D. Tex. Feb. 7, 2012), aff’d., 530 F. App’x. 360
(5th Cir. 2013), to support both the settlement and bar
orders. Importantly, Kaleta is an unpublished, nonprecedential decision of this court. Not only that, but
reading it as the district court and Appellees here
advocate would mean investing the Receiver with
unbridled discretion to terminate the third-party
claims against a settling party that are unconnected
to the res establishing jurisdiction. That is unprecedented. But Kaleta is in any event distinguishable and
not inconsistent with the above-stated principles. In
Kaleta, the bar order prevented defrauded investors
from suing parties closely affiliated with the entity in
receivership after the parties had agreed to make good
on their guarantees to the receiver. Moreover, the
settling parties would have been codefendants with
receivership entities, leading to the possibility of their
asserting indemnity or contribution from the estate.
The court was forestalling a race to judgment that
would have diminished the recovery of all creditors
against receivership assets. That bar order protected
the assets of the receivership estate, whereas the bar
orders before us extend beyond receivership assets.
The Receiver also contends that the district court
may permanently enjoin the claims of non-consenting
third parties based on general statements about ancillary powers found in SEC cases such as Wencke and
Safety Financial Services. We disagree. These cases
stand only for the proposition that, in some circum-

19a
stances, federal courts may use injunctive measures,
such as stays, “where necessary to protect the federal
receivership.” See Wencke, 622 F.2d at 1370; Safety
Fin. Serv., 674 F.2d at 372 n.5 (distinguishing Wencke,
which “involved the much broader question of a federal
court’s power to enjoin nonparty state actions against
receivership assets.”) (emphasis added). In fact, the
court in Wencke recognized that its holding was limited to the propriety of staying third-party “proceedings against a court-imposed receivership.” Wencke,
622 F.2d at 1371 (emphasis added). Correctly read,
these cases explain that in rem jurisdiction over the
receivership estate imbues the district court with
broad discretion to shape equitable remedies necessary to protect the estate.7 They do not support that a
district court’s in rem jurisdiction over the estate may
serve as a basis to permanently bar and extinguish
independent, non-derivative third-party claims that
do not affect the res of the receivership estate.
The Appellees emphasize the recent decision SEC v.
DeYoung, 850 F.3d 1172 (10th Cir. 2017), as supporting their argument that an equity court’s permanent
bar order against third parties is appropriate when
tied to a settlement that secures receivership assets.
Like many of their arguments, however, this assertion
proves too much. DeYoung is a narrow and deliberately fact-specific opinion. See DeYoung, 850 F.3d at
1182–83. The court approved a bar order preventing
three defrauded IRA Account holders (out of over
5,500 victims) from pursuing claims against the depos7

See also SEC v. Stanford Int’l Bank, Ltd., 424 F. App’x. 338,
340 (5th Cir. 2011) (“It is axiomatic that a district court has broad
authority to issue blanket stays of litigation to preserve the
property placed in receivership pursuant to SEC actions.”)
(emphasis added).

20a
itory bank in which the accounts had been illegally
commingled. Notably, however, the court demonstrated that (1) the claims of the barred investors
precisely mirrored claims that had been asserted and
settled by the receiver; (2) averted a duplicative lawsuit whereby the bank could have asserted its contract
right to indemnity from the receivership assets; and
(3) provided the account holders with a claim against
the receivership estate. The court simply channeled
redundant claims into the receivership while preventing diminution of receivership assets.
Returning to the broad issue in this case, whether
the district court abused its discretion in approving
the settlement and bar orders, there are two subparts
to the question. The first is whether the district court’s
equitable power to fashion ancillary relief could be
used to bar claims by insureds to proceeds of the
Underwriters’ policies, which are property within the
receivership estate. The second is whether the court’s
equitable power may be used to bar third-party claims,
like tort or statutory claims, against the Underwriters
but unconnected to the property of the Receivership.
The answers to these questions vary according to the
Appellants’ claims. Texas law, unless otherwise noted,
applies by virtue of 28 U.S.C. § 959(b).
II. Party Contentions
a. Appellants Alvarado and McDaniel
The McDaniel and Alvarado Appellants are all former Stanford managers or employees who are being
sued by the Receiver for clawbacks of their compensation via the Receiver’s Indirect Claims on the Underwriters’ policies. Appellants seek coverage under the
insurance policies, which Underwriters have denied,
to defend against these lawsuits and indemnify their

21a
losses. Appellants object to the settlement and bar
orders on numerous grounds. From a practical standpoint, the settlement will exhaust the Underwriters’
policy proceeds, leaving these Appellants wholly uninsured against the Receiver’s lawsuits. The bar orders,
moreover, prevent them from pursuing against the
Underwriters not only breach of contract claims for
violating the duties to defend and indemnify, but also
statutory and tort claims that, if successful, would not
be paid from policy proceeds and would not reduce
Receivership assets.
The district court’s rejection of Appellants’ objections rested generally on its conclusion that the settlement and bar orders are fair, equitable, reasonable
and in the best interests of the receivership estate. As
has been noted, the court cited only the Kaleta case,
affirmed by a non-precedential decision of this court,
in support of its conclusions. The court’s reasoning
invoked the perceived necessity of a settlement,
together with the bar orders, to resolve fairly and
efficiently the competing claims of the Receiver and
Underwriters about policy coverage and assure the
maximum recovery for Stanford’s defrauded investors.
Without the bar orders, the court stated, Underwriters
would not settle. The court pointedly refused to decide
whether policy exclusions apply to the Appellants’
coverage claims. Even if such exclusions barred coverage, the court added, then the Receiver might also be
barred by the same exclusions and all potential benefit
of the settlement would be lost. In sum, the Appellants
would lose out no matter what: their claims could
be barred by exclusions, held uninsurable, or the
Receiver, having the right to settle, would exhaust the

22a
proceeds first. The balance of benefits to the receivership estate against Appellants’ admitted losses weighed
in favor of the court’s approving the settlement and
bar orders.
8

In the course of explaining its decision, however, the
court made some errors. First, its broad statement
that the settlement would fail without the bar orders
did not account for the fact that the parties had mediated a prior settlement that required no bar orders
against these Appellants because the Receiver had
agreed to release all of its claims against them. “Global
peace” there was achieved not by bar orders, but by the
Receiver’s agreeing to drop the Indirect Claim suits.
The final settlement required the broad bar orders
only because the Receiver, for whatever reason,
insisted that it must continue to pursue hundreds of
clawback actions.9 The court’s broad statement also
neglected to note that, despite the Receiver’s overall
insistence to the contrary, the Receiver nonetheless

8

Implicit in the district court’s reference to the Receiver’s
right to settle and exhaust all the policy proceeds is apparently
its reliance on Texas law, which allows an insurer to settle with
fewer than all of its co-insureds when the policy proceeds are
insufficient to satisfy all of the claims. See G.A. Stowers Furniture
Co. v. Am. Indem. Co., 15 S.W.2d 544 (Tex. 1929); Pride Transp.
v. Cont’l Cas. Co., 511 F. App’x 347, 351 (5th Cir. 2013); Travelers
Indem. Co. v. Citgo Petroleum Corp., 166 F.3d 761, 765–68 (5th
Cir. 1999); see also Tex. Farmers Ins. Co. v. Soriano, 881 S.W.2d
312, 315 (Tex. 1994). The court, however, never referenced these
cases.
9

Indeed, when the Underwriters moved the district court to
enforce the terms of the mediated settlement, their motion queried the benefits to be reaped, other than in the Receiver’s legal
fees, from these time-consuming suits against relatively poor former employees targeted by the Receiver.

23a
released its claims against sixteen former Stanford
officers and employees in the final settlement.
Second, the court, perhaps inadvertently, did not
address the fact that Appellants were foreclosed from
sharing in the assets recovered by the Receiver by
filing claims against the estate.
Third, the court failed to distinguish between the
Appellants’ two separate types of claims – contractual
claims for defense and indemnity payable (if successful) from policy proceeds in competition with investors’
claims to the Receivership assets; and independent,
non-derivative, third-party claims for tort and statutory violations, which would be satisfied (if successful)
out of Underwriters’ assets. In this connection, the
court also undervalued the Appellants’ claims for
indemnity by disregarding Pendergest-Holt. In that
case, this court held that the D&O policies should
provide up-front reimbursement of defense costs in
Stanford insureds’ criminal cases pending a separate
judicial proceeding to resolve the coverage question.
Pendergest-Holt v. Certain Und. at Lloyd’s of London,
600 F.3d 562, 572–74 (5th Cir. 2010). Although
carefully hedged, this decision offered Appellants the
prospect of possible, temporary relief for their mounting defense costs and was not “wholly inapplicable” to
the decision concerning the settlement and bar orders.
But in any event, the court did not analyze the ramifications of Appellants’ distinct claims against Receivership assets and claims wholly independent of receivership assets.
i. Contractual Claims for Defense and
Indemnity
Reviewing first the settlement and bar of Appellants’ contractual claims against the policy proceeds

24a
that are property of the receivership estate, we find
that the court abused its discretion by extinguishing
Appellants’ claims to the policy proceeds, while making no provision for them to access the proceeds
through the Receiver’s claims process. This undermines the fairness of the settlement.
As the district court observed, some settlement with
the Underwriters was prudent because of the sheer
magnitude of claims far beyond the policies’ coverage,
and because the scope of coverage, dependent on multiple, insured-specific factual and legal questions, is
unclear. What is clear in Texas law, as conceded by
Appellants, is that an insurer may settle with fewer
than all of its co-insureds when the policy proceeds are
insufficient to satisfy all of the claims. See G.A.
Stowers Furniture Co. v. American Indem. Co., 15
S.W.2d 544 (Tex. 1929); Pride Transp. v. Continental
Cas. Co., 511 F. App’x 347, 351 (5th Circuit 2013);
Travelers Indem. Co. v. Citgo Petroleum Corp., 166
F.3d 761, 765–68 (5th Cir. 1999); see also Farmers
Insurance Co. v. Soriano, 881 S.W.2d 312, 315 (Tex.
1994).10 Although the district court did not cite these
cases, its ruling squares with them and supports its
cost/benefit calculation for the Receiver/Underwriters’
settlement to the detriment of Appellants’ contractual
claims.
But not only did the settlement expressly foreclose
the Appellants from sharing in the insurance policy
proceeds of which they are coinsureds, the Appellants
are not even allowed to file claims against the
10

Soriano may not squarely apply to the extent that the
settlement does not, on its face, exhaust the policy limits. But this
uncertainty in the law meant that settlement between the
Receiver and the Underwriters was fair game.

25a
Receivership estate. Unlike the Stanford investors and
the Receiver’s attorneys, who can pursue restitution
through the Receiver’s claims process, Appellants
have no access to the claims process. The Settlement
Agreement specifically restricts payment of the
Proceeds to the Receivers’ attorneys and the Stanford
investors and specifically excludes Stanford employees
and management, including Appellants. For these
Appellants, should the Receiver continue to pursue
them, their claims against the Underwriters offer the
only avenue of recovery. This alone serves to distinguish this case from Kaleta, which approved the settlement because, inter alia, the settlement agreement
“expressly permits” those affected by the bar order “to
pursue their claims by ‘participat[ing] in the claims
process for the Receiver's ultimate plan of distribution
for the Receivership Estate.’” See Kaleta, 530 F. App’x
at 362–63 (alteration in original). Barring Appellants’
claims to coverage under their insurance policies by
claiming the proceeds of these policies as property of
the Receivership, and then barring Appellants’ from
accessing even a portion of these proceeds through the
Receivership claim process, undermines the fairness of
the settlement.
The district court and Receiver lacked authority to
dispossess claimants of their legal rights to share in
receivership assets “for the sake of the greater good.”
The court’s duty, as previously described, is to assure
that all claimants against the Receivership have a
reasonable opportunity to share in the estate’s assets.
Given the numerous exclusions to policy coverage,11
the Appellants’ entitlement to proceeds may appear
11

The myriad of contested policy exclusions include the
insured versus insured, money laundering, fraud, intentional
corporate or business policy, and prior knowledge exclusions.

26a
weak, but the court disclaimed deciding coverage
issues, and the Appellants have identified several reasons, in addition to Pendergest-Holt, why their contractual claims might prevail on final adjudication.12
Rather than extinguish the Appellants’ contractual
claims, the court could have authorized them to be
filed against the Receivership in tandem with the
Stanford investors’ claims. Such “channeling orders”
are often employed to afford alternative satisfaction to
competing claimants to receivership assets while
limiting their rights of legal recourse against the
assets. See, e.g., DeYoung, 850 F.3d at 1182; see also
Kaleta, 530 F. App’x at 360 (approving claims filing in
receivership for barred litigants). In any event, the
court may have intended to channel the Appellants’
claims here but simply overlooked their omission from
the extant procedures.13

12

Appellants explain that a significant number of their group
have no personal liability, and, inferentially, should not be subject to policy exclusions, because they did not sell Stanford CDs
to investors. Further, because the Receiver’s claims against the
Appellants are not derivative, any recovery from the proceeds
would not at all reduce or offset the Appellants’ liability for fraudulent transfers. Finally, Appellants assert viable defenses to the
clawback actions based, in part, on Texas law in this Receivership. See Janvey v. Golf Channel, Inc., 487 S.W.3d 581, 582 (Tex.
2016) (recognizing defense to fraudulent transfer of reasonably
equivalent value received).
13

The Receiver and Underwriters contend that in lieu of other
modes of compensation through the receivership, these Appellants have received “benefits,” however small, from the settlement because the insurance proceeds that have gone into the
receivership estate offset their potential liability in the Receiver’s
and other suits. The district court made no such finding, and we
see no basis in the record for it.

27a
ii. Extracontractual Claims for Tort and
Statutory Violations
By ignoring the distinction between Appellants’ contractual and extracontractual claims against Underwriters, the district court erred legally and abused its
discretion in approving the bar orders.14 These claims,
including common law bad faith breach of duty and
claims under the Texas Insurance Code, lie directly
against the Underwriters and do not involve proceeds
from the insurance policies or other receivership
assets.15 These damage claims against the Underwriters exist independently; they do not arise from derivative liability nor do they seek contribution or indemnity from the estate.16 As the preceding discussion
14

The Receiver and Underwriters would pretermit any such
distinction by contending that unless the Appellants had valid
contractual claims for insurance from the Underwriters’ policies,
they could not bring extracontractual claims. This may well be
accurate. The district court, however, refused to rule on the viability of Appellants’ contractual claims, and we need not undertake that task here. The basis of settlement for all concerned is
to avoid tedious litigation of insurance coverage claims.
15

This principle has been described above in the related context of bankruptcy. See Matter of Zale Corp., 62 F.3d 746, 756–57
(5th Cir. 1995); Matter of Vitek, Inc., 51 F.3d 530, 538 (5th Cir.
1995); In re Sportstuff, Inc., 430 B.R. 170, 178–79 (B.A.P. 8th Cir.
2010); see also Matter of Buccaneer Res., LLC, 912 F.3d 291, 293–
97 (5th Cir. 2019) (explicating the difference between derivative
and non-derivative injuries and holding that a tortious interference claim by a former company president against the outside lenders is non-derivative and separate from the bankruptcy estate).
16

See SEC v. DeYoung, 850 F.3d 1172; In re Heritage Bond
Litig., 546 F.3d 667, 680 (9th Cir. 2008) (discussing settlement of
a securities class action and distinguishing between claims for codefendant contribution and independent claims against settling
defendants; former could be dismissed by bar order, but latter
claims could not be).

28a
explains in detail, receivership courts have no authority to dismiss claims that are unrelated to the receivership estate. That the district court was “looking only
to the fairness of the settlement as between the debtor
and the settling claimant [and ignoring third-party
rights] contravenes a basic notion of fairness.” Zale, 62
F.3d at 754 (alteration in original) (citing United
States v. AWECO, Inc., 725 F.2d 293, 298 (5th Cir.)).
As discussed above, the Receiver lacked standing to
settle independent, non-derivative, non-contractual
claims of these Appellants against the Underwriters.
See DSCC, 712 F.3d at 190, 193 (receiver “has standing to assert only the claims of the entities in receivership, not the claims of the entities’ investor-creditors
[coinsureds] . . .”). Of course, the Receiver and Underwriters were, as Appellants’ counsel colorfully described,
all too happy to compromise at the expense of Appellants’ rights. The court purported to justify this result
by claiming that “the bar orders are not settling
claims, they are enjoining them.” No matter the euphemism, a permanent bar order is a death knell intended
to extinguish the claims, which are a property interest,
however valued, of the Appellants.
Moreover, in approving the settlement and bar
orders against these Appellants, the district court
overlooked problems inherent in the settling parties’
positions. The Underwriters’ position was in conflict
with the Appellants: by means of the bar orders, the
Underwriters limited their exposure to further costly
and time-consuming litigation over Appellants’ nonderivative extracontractual claims against them. The
Receiver was enabled by the settlement and bar orders
to place Appellants in a vise: preserving his ability to
sue Appellants for clawbacks even as the agreement
stripped Appellants’ access to any recompense from

29a
the Underwriters. These problems cast grave doubt
on the fairness and equity of the settlement and bar
orders reached without Appellants’ participation.18
17

In sum, although we sympathize with the impetus
to settle difficult and atomized issues of insurance coverage rather than dissipate receivership assets in
litigation, the settlement and bar orders violated fundamental limits on the authority of the court and
Receiver. The court and Receiver could not abrogate
contractual claims of these Appellants to proceeds of
Underwriters’ policies without affording them an
alternative compensation scheme similar, if not identical, to the claims process for Stanford investors. The
court could not authorize the Receiver and Underwriters to compromise their differences while extinguishing the Appellants’ extracontractual claims against
Underwriters. Equity must follow the law, which here
constrains the court’s and Receiver’s authority to
protecting the assets of the receivership and claims
directly affecting those assets.19
17

The mediated settlement, in contrast, averted these conflicts
of interest with the Receiver’s release of claims against Appellants
offsetting the Underwriters’ potential extracontractual liability.
18

When compared with DeYoung, 850 F.3d at 1182–83, the
unsustainability of the settlement and bar orders here is manifest. Unlike that case, the extracontractual claims of these Appellants do not parallel those of the Receiver, Underwriters possess
no contribution/indemnity claim against the receivership estate,
and Appellants have been provided no channel to assert claims in
the receivership.
19

We reject Appellants’ due process claims against the settlement and bar orders. They contend that because they “had an
interest in” the outcome of the settlement, and the Bar Order
“fully and finally adjudicates Appellants’ independent state law
contract and tort claims,” due process required at least the ability
to introduce evidence at the hearing. McDaniel presses other

30a
b. Appellant Cordell Haymon
Like the Alvarado and McDaniel Appellants, Appellant Cordell Haymon, a member of Stanford Trust
Company’s board of Directors, was targeted by the
Receiver and sought coverage of his defense costs
under the insurance policies. After the Underwriters
denied his claim for coverage, he settled the Receiver’s
fiduciary duty breach suit for $2 million. Haymon
asserts that he relied on the language of his settlement
agreement, which specifically authorized the continuation of his suit against the Underwriters. Only a few
months later, however, the final proposed settlement
undid his expectations of recovery from the Underwriters. Haymon requested to intervene in the initial
coverage dispute between Underwriters and the
Receiver, and he filed objections to the proposed settlement. He argues now that the district court erred in
barring all of his contractual and extracontractual tort
and statutory claims against the Underwriters.
To the extent that Haymon’s claims mirror those of
Alvarado and McDaniel, the same results follow. The
district court acted within its authority to bar Haymon’s
claim for contractual defense and indemnity under the
insurance policies, but some alternate compensation
mode from the receivership estate is required, and the
constitutional claims. But Appellants were provided notice of the
settlement hearing, were able to fully brief their position and
provide affidavits, and they have offered nothing more on appeal.
Although excluded from the settlement negotiations, they have
shown no legal requirement that they be allowed to participate in
a settlement resolving claims for reimbursement against the
limited policy proceeds. The applicable Texas law allows insurers
to settle with fewer than all of the insureds in such circumstances. Appellants’ due process arguments fail, and McDaniel’s
other claims are meritless.

31a
court could not bar his extracontractual claims against
the Underwriters. However, the ultimate evaluation of
Haymon’s claims may differ from that of the other
Appellants for two reasons, which the district court
should assess on remand. First, because his insurance
coverage claim was liquidated before the final settlement ($2 million potential indemnity and $1.5 million
defense costs) it was ripe for judicial determination
under Pendergest-Holt.20 Second, Haymon received a
bar order, perhaps valuable to him, against any further litigation concerning his involvement with
Stanford entities.
c. Appellant Louisiana Retirees
Unlike the foregoing Appellants, the Louisiana
Retirees are not coinsureds under the insurance policies, and they are not being pursued in Indirect Claim
actions by the Receiver. Retirees have assiduously
pursued securities law claims against certain Stanford
brokers and the Underwriters, as insurers for those
brokers, under the Louisiana Direct Action Statute,
La. R.S. 22:1269.
First, the parties dispute the meaning of the bar
order and the extent to which it bars the Retirees’
claims. The Receiver argues that the bar order applies
only to claims against the Underwriters and the
Underwriters’ Released Parties, defined as the officers,
agents, etc. of Underwriters, and expressly excluding
the officers, directors, or employees of Stanford
Entities. Retirees argue that it enjoins them from pur20

Finally, as noted in regard to the other Appellants, Haymon
was afforded the opportunity, and availed himself of the ability
to press his constitutional objections to the settlement and bar
orders. There was no failure of due process and his other vaguely
identified constitutional objections are meritless.

32a
suing the Stanford Claims, defined as “any action,
lawsuit or claims brought by any Stanford Investor
against Underwriters [or] . . . Underwriter’s Insureds.”
In turn, Underwriters’ Insureds are defined as “any
person that shall be an officer and director of any
Stanford Entities . . . [or] any employee of any Stanford
Entities.” On remand, it would be appropriate for the
district court to determine and clarify the meaning of
the bar order as to the Retirees, keeping in mind that
the district court may not enjoin any claims by
Retirees against the brokers that do not implicate the
policy proceeds.
Second, the Retirees’ claims under the Louisiana
direct action statute unequivocally implicate the policy proceeds and therefore assets of the receivership.
The statute specifies that an action can be brought
“within the terms and limits of the policy by the
injured person.” La. Rev. Stat. 22:1269(A), (C), (D). It
“does not create an independent cause of action
against the insurer[;] it merely grants a procedural
right of action against an insurer where the plaintiff
has a substantive cause of action against the insured.”
Soileau v. Smith True Value & Rental, 144 So. 3d 771,
780 (La. 2013). As such, the Receiver could settle with
the Underwriters notwithstanding the direct action
claim just as he could settle regardless of the Employee
Appellants’ contractual claims to policy proceeds.
Further, as former investors in the Stanford entities,
the Retirees were afforded a means of filing claims
apart from the direct action suit, and many have
availed themselves of that opportunity. Consequently,
the Retirees’ direct action suit against the Underwriters amounts to a redundant claim on receivership
assets.

33a
Nevertheless, the Retirees assert several arguments
that have no bearing on the permissibility of the settlement and bar order as to them. They contend first
that the settlement and bar order conflict with the
Supreme Court’s decision in Chadbourne & Parke LLP
v. Troice, 134 S. Ct. 1058 (2014), which they characterize as “acknowledg[ing] the Louisiana Retirees’ rights
to bring their state law securities claims in Louisiana
state court.” But Troice held only that the Securities
Litigation Uniform Standards Act did not preempt the
Louisiana Appellants’ state court claims. The Court’s
ruling did not bear on the merits of or procedure for
the Retirees’ state law case.
Second, they contend that DSCC, 712 F.3d at 185,
forbids giving the receiver the right to “control the
settlement of a claim it does not own.” That is certainly
correct according to our previous discussion, but here,
the Receiver had standing to pursue its own claims
as coinsured under the Underwriters’ policies, such
claims perfected the Receiver’s interest in a valuable
asset, and Texas law provided the right to settle them
even at the expense of the Retirees’ direct action
claims.
The Retirees argue that the district court should
have first determined the disputed legal questions
about the magnitude of, and legal rights to, the policy
proceeds before approving the settlement and bar
orders under In re Louisiana World Exposition, Inc.,
832 F.2d 1391 (5th Cir. 1987). This argument simply
misreads that case. The court in Louisiana World
explicitly distinguished the facts before it from cases
involving coinsureds with equal claims to the policy
proceeds. Moreover, at least one disputed policy – the

34a
Fidelity Bond – covers only the Receivership entities.21
It was not an abuse of discretion for the district court
to hold that equity favored avoiding costly litigation
and dissipation of receivership assets by allowing the
Receiver, a coinsured with equal claim to the policy
proceeds, to settle with the Underwriters. Avoiding
protracted legal examination of the policy exclusions,
which could just as easily bar Retirees and others from
the policy proceeds, was precisely the point of the
settlement.
Fourth, Retirees assert that the Anti-Injunction Act,
28 U.S.C. § 2283 (“AIA”), prevented the court from
issuing its bar orders. This argument has no merit.
Under the AIA, “any injunction against state court
proceedings otherwise proper under general equitable
principles must be based on one of the specific
statutory exceptions to [the Anti-Injunction Act] if
it is to be upheld.” Atl. Coast Line R.R. Co. v. Bhd. of
Locomotive Eng’rs, 398 U.S. 281, 287, 90 S. Ct. 1739,
1743 (1970). The specific exceptions are express authorization by an Act of Congress, where necessary in aid
of the court’s jurisdiction, or to protect or effectuate the
court’s judgments. Id. at 288, 90 S. Ct. at 1743–44. The
AIA does not prohibit the settlement and bar order
because, pertinent to the Retirees, they cover only
those claims implicating the insurance policy proceeds
and so were necessary in aid of the district court’s
jurisdiction over those proceeds. The district court has
exclusive in rem jurisdiction over the policy proceeds
and permanent bar orders have been approved as
parts of settlements to secure receivership assets. See,
21

As with the other policies, the Underwriters and Receiver
dispute the scope of coverage and exclusions of the Fidelity Bond,
and whether the Receiver may access the proceeds, but there is
no argument that the Retirees may access these proceeds.

35a
e.g., SEC v. Parish, No. 2:07-CV-00919-DCN, 2010 WL
8347143 (D.S.C. Feb. 10, 2010) (“[T]he bar order is
necessary to preserve and aid this court’s jurisdiction
over the receivership estate, such that the AntiInjunction Act would not prohibit the bar order even if
there were pending state court actions, which there
are not.”).
For these reasons, the settlement and bar orders did
not interfere with or improperly extinguish the Retirees’ rights.
CONCLUSION
For the foregoing reasons, we VACATE the district
court’s orders approving the settlement and bar orders
and REMAND for further proceedings consistent with
this opinion.22

22

Vacatur and remand will probably necessitate the court’s
reconsideration of the attorneys’ fee award to the Receiver’s
counsel.

36a
APPENDIX B
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
[Filed October 23, 2019]
————
No. 17-10663
————
SECURITIES AND EXCHANGE COMMISSION
Plaintiff
v.
STANFORD INTERNATIONAL BANK, LIMITED
Defendant
v.
JOSEPH BECKER; TERENCE BEVEN; WANDA BEVIS;
THOMAS EDDIE BOWDEN; TROY L. LILLIE, JR., et al
Movants-Appellants
DOUG MCDANIEL; SCOTT NOTOWICH; EDDIE
ROLLINS; CORDELL HAYMON; et al,
Objecting Parties-Appellants
v.
CERTAIN UNDERWRITERS AT LLOYD’S OF LONDON;
ARCH SPECIALTY INSURANCE COMPANY;
LEXINGTON INSURANCE COMPANY,
Interested Parties-Appellees
RALPH S. JANVEY,
Appellee
————

37a
CERTAIN UNDERWRITERS AT LLOYD’S OF LONDON;
ARCH SPECIALTY INSURANCE COMPANY,
Plaintiffs-Appellees
v.
RALPH S. JANVEY, In his Capacity as Court
Appointed Receiver for Stanford International
Bank Limited, Stanford Group Company, Stanford
Capital Managment L.L.C., Stanford Financial
Group, and Stanford Financial Group Bldg,
Defendant-Appellee
v.
CORDELL HAYMON,
Intervenor-Appellant
————
CERTAIN UNDERWRITERS AT LLOYD’S OF LONDON;
ARCH SPECIALTY INSURANCE COMPANY;
LEXINGTON INSURANCE COMPANY,
Plaintiffs-Appellees
v.
CORDELL HAYMON,
Objecting Party-Appellant
v.
RALPH S. JANVEY,
Intervenor-Appellee
————

38a
CERTAIN UNDERWRITERS AT LLOYD’S OF LONDON;
ARCH SPECIALTY INSURANCE COMPANY;
LEXINGTON INSURANCE COMPANY,
Plaintiffs-Appellees
v.
RALPH S. JANVEY,
Intervenor Defendant-Appellant
v.
CORDELL HAYMON,
Objecting Party-Appellant
————
CORDELL HAYMON,
Third Party Plaintiff-Appellant
v.
CERTAIN UNDERWRITERS OF LLOYD’S OF LONDON,
Claims asserted by Claude F. Raynaud, Jr.
Third Party Defendant-Appellee
v.
RALPH S. JANVEY,
Appellee
————
Appeals from the United States
District Court for the
Northern District of Texas
————
ON PETITIONS FOR REHEARING AND
REHEARING EN BANC
(Opinion 6/17/19, 5 Cir., ___ , ___ F.3d ___ )

39a
Before JONES, CLEMENT, and SOUTHWICK, Circuit
Judges.
PER CURIAM:
(X) The Petitions for Rehearing are DENIED and no
member of this panel for judge in regular active
service on the court having requested that the
court be polled on Rehearing En Banc, (FED. R. APP.
P. and 5TH CIR. R. 35) the Petitions for Rehearing
En Banc are also DENIED.
( ) The Petitions for Rehearing are DENIED and the
court having been polled at the request of one of the
members of the court and a majority of the judges
who are in regular active service and not disqualified not having voted in favor, (FED. R. APP. P. and
5TH CIR. R. 35) the Petitions for Rehearing En Banc
are also DENIED.
( ) A member of the court in active service having
requested a poll on the reconsiderations of this
cause en banc, and a majority of judges in active
service and not disqualified not having voted in
favor, Rehearings En Banc are DENIED.
ENTERED FOR THE COURT:
/s/ Edith H. Jones _________________
UNITED STATES CIRCUIT JUDGE
_______________________________
* Judge James L. Dennis, Catherina Haynes, and
Gregg J. Costa, did not participate in the consideration of the rehearings en banc.

40a
APPENDIX C
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
[Filed June 17, 2019]
————
No. 17-10663
————
D.C. Docket No. 3:09-CV-298
D.C. Docket No. 3:09-CV-1736
D.C. Docket No. 3:13-CV-2226
D.C. Docket No. 3:15-CV-1997
D.C. Docket No. 3:14-CV-3731
————
SECURITIES AND EXCHANGE COMMISSION
Plaintiff
v.
STANFORD INTERNATIONAL BANK, LIMITED
Defendant
v.
JOSEPH BECKER; TERENCE BEVEN; WANDA BEVIS;
THOMAS EDDIE BOWDEN; TROY L. LILLIE, JR., et al,
Movants-Appellants
DOUG MCDANIEL; SCOTT NOTOWICH; EDDIE
ROLLINS; CORDELL HAYMON; et al,
Objecting Parties-Appellants
v.
CERTAIN UNDERWRITERS AT LLOYD’S OF LONDON;
ARCH SPECIALTY INSURANCE COMPANY;
LEXINGTON INSURANCE COMPANY,
Interested Parties-Appellees

41a
RALPH S. JANVEY,
Appellee
————
CERTAIN UNDERWRITERS AT LLOYD’S OF LONDON;
ARCH SPECIALTY INSURANCE COMPANY,
Plaintiffs-Appellees
v.
RALPH S. JANVEY, In his Capacity as Court
Appointed Receiver for Stanford International
Bank Limited, Stanford Group Company, Stanford
Capital Managment L.L.C., Stanford Financial
Group, and Stanford Financial Group Bldg,
Defendant-Appellee
v.
CORDELL HAYMON,
Intervenor-Appellant
————
CERTAIN UNDERWRITERS AT LLOYD’S OF LONDON;
ARCH SPECIALTY INSURANCE COMPANY;
LEXINGTON INSURANCE COMPANY,
Plaintiffs-Appellees
v.
CORDELL HAYMON,
Objecting Party-Appellant
v.
RALPH S. JANVEY,
Intervenor-Appellee
————

42a
CERTAIN UNDERWRITERS AT LLOYD’S OF LONDON;
ARCH SPECIALTY INSURANCE COMPANY;
LEXINGTON INSURANCE COMPANY,
Plaintiffs-Appellees
v.
RALPH S. JANVEY,
Intervenor Defendant-Appellee
v.
CORDELL HAYMON,
Objecting Party-Appellant
————
CORDELL HAYMON,
Third Party Plaintiff-Appellant
v.
CERTAIN UNDERWRITERS OF LLOYD’S OF LONDON,
Claims asserted by Claude F. Reynaud, Jr.
Third Party Defendant-Appellee
v.
RALPH S. JANVEY,
Appellee
————
Appeals from the United States District Court for the
Northern District of Texas
————

43a
Before JONES, CLEMENT, and SOUTHWICK, Circuit
Judges.
JUDGMENT
This cause was considered on the record on appeal
and was argued by counsel.
It is ordered and adjudged that the judgment of the
District Court is vacated, and the cause is remanded
to the District Court for further proceedings in accordance with the opinion of this Court.
[SEAL]
Certificate as a true copy
and issued as the mandate
on Oct. 31, 2019
Attest: /s/ Lyle W. Cayle ____
Clerk, U.S. Court of Appeals,
Fifth Circuit

44a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
[Filed May 16, 2017]
————
Civil Action No. 3:09-CV-0298-N
————
SECURITIES AND EXCHANGE COMMISSION,
Plaintiff,
v.
STANFORD INTERNATIONAL BANK, LTD., et al.,
Defendants
————
FINAL BAR ORDER
Before the Court is the Expedited Request for Entry
of Scheduling Order and Motion to Approve Proposed
Settlement with Certain Underwriters at Lloyd’s of
London,1 Arch Specialty Insurance Company, and
Lexington Insurance Company (collectively “Underwriters”), to Enter the Bar Order, to Enter the Final
Judgments and Bar Orders, and for Attorneys’ Fees
(the “Motion”), filed by Ralph S. Janvey, in his capacity
as court-appointed Receiver for Stanford International
Bank, Ltd. et al. (the “Receiver”). Docket No. 2324. The

1

“Certain Underwriters at Lloyd’s of London” means Lloyd’s
of London Underwriting Members in Syndicates 2987, 2488,
1886, 1084, 4000, 1183, and 1274.

45a
Motion concerns an Agreement (the “Agreement”)2
among and between Underwriters, the Official Stanford
Investors Committee, and the Receiver. Underwriters
and the Receiver are parties to Certain Underwriters
at Lloyd’s of London, et al. v. Ralph S. Janvey, et al.,
Civil Action No. 3:09-CV-01736 (the “Coverage Action”).
The Court-appointed Examiner signed the Agreement
as Examiner solely to evidence his support and
approval of the Agreement and to confirm his obligations to post the Notice on his website, but is not
otherwise individually a party to the Coverage Action
or the Agreement.
Following notice and a hearing, and having considered the filings and heard the arguments of counsel,
the Court hereby GRANTS the Motion.
I. INTRODUCTION
On February 16, 2009, this Court appointed Ralph
S. Janvey to be the Receiver for the Stanford Entities.
Docket No. 10, Securities and Exchange Commission
v. Stanford International Bank, Ltd., No. 3:09-cv-298
(N.D. Tex.) (the “SEC Action”). Following his appointment, the Receiver made claims for coverage (the
“Direct Claims”) under three insurance policies issued
by Underwriters to the Stanford Entities: (1) Financial
Institutions Crime and Professional Indemnity Policy,
Policy Number 576/MNA851300 (the “PI Policy”);
(2) Directors’ and Officers’ Liability and Company
Indemnity Policy, Policy Number 576/MNK558900
(the “D&O Policy”); and (3) Excess Blended Wrap Policy,
Policy Number 576/MNA831400 (the “Excess Policy,”

2

The term “Agreement” refers to the Settlement Agreement
that is attached as Exhibit 1 of the Appendix to the Motion.

46a
and collectively with the PI Policy and the D&O Policy,
the “Insurance Policies” or the “Policies”).
The Insurance Policies provide for certain limits of
the amount of coverage available. The Parties dispute
the available limits, the legal effect of the provisions
governing the Policies’ limits, and the amount of the
Policies’ remaining limits.
Underwriters dispute there is coverage for the
Direct Claims and filed the Coverage Action, seeking
a declaration of no coverage under the Insurance
Policies. The Receiver counterclaimed, alleging, inter
alia, breach of contract, breach of the duty of good faith
and fair dealing, bad faith under the Texas Insurance
Code, and violation of the Texas Deceptive Trade
Practices Act.
Underwriters filed a motion for judgment on the
pleadings, (Doc. 50, Coverage Action), to which the
Receiver responded, (Doc. 58, Coverage Action), and
which the Court denied, (Doc. 93, Coverage Action).
Underwriters and the Receiver engaged in written
discovery and electronic discovery, reviewing and analyzing voluminous Stanford documents maintained by
the Receivership. Numerous depositions were taken in
the United States, London, and Mexico.
In addition to the Coverage Action, the Insurance
Policies are or may be implicated in numerous other
disputes. The Receiver and the Committee filed numerous lawsuits against Underwriters’ Insureds (the
“Indirect Claims”),3 who in turn made or may make
claims for coverage under the Policies. Stanford Inves3

The term “Underwriters’ Insureds” is defined in Paragraph
25 of the Agreement. The term “Indirect Claims” is defined on
page 3 of the Agreement.

47a
tors also made numerous claims against Underwriters Insureds (the “Stanford Investor Claims”),5 who in
turn made or may make claims for coverage under the
Insurance Policies. Underwriters contend that the
Insurance Policies do not provide coverage for the
Indirect Claims or the Stanford Investor Claims, and
they are involved in numerous lawsuits relating to the
various claims for coverage under the Policies (the
“Third-Party Coverage Actions”).6 Nonetheless, pursuant to the Policies and as permitted by this Court’s
prior order (Docket No. 831), Underwriters have paid
approximately $30.3 million for the defense costs of
various of Underwriters’ Insureds. The Receiver has
intervened or sought to intervene in the Third-Party
Coverage Actions.
4

The litigated resolution of the Coverage Action and
the Third-Party Coverage Actions would likely cost
millions of dollars and the outcome is uncertain.
Recognizing the uncertainties, risks, and costs of
litigation, the Receiver and Underwriters entered into
formal, mediated settlement negotiations beginning in
June 2015. In addition to the Receiver and Underwriters, the Examiner participated in the settlement discussions, ensuring that the perspective of the
Committee—which the Court appointed to “represent[] in this case and related matters” the “customers
of SIBL who, as of February 16, 2009, had funds on
deposit at SIBL and/or were holding certificates of
4

The term “Stanford Investors” is defined on pages 4-5 of the
Agreement.
5

The term “Stanford Investor Claims” is defined in Paragraph
21 of the Agreement.
6

The term “Third-Party Coverage Actions” is defined in
Paragraph 23 of the Agreement and Exhibit J to the Agreement.

48a
deposit issued by SIBL” (Docket No. 1149)—would be
heard in connection with any proposed settlement
involving the Insurance Policies. Following the last
day of mediation, the parties continued their negotiations and arrived at a settlement which the Agreement
documents.
Under the terms of the Agreement, Underwriters
will pay $65 million to the Receivership Estate, which
(less attorneys’ fees and expenses) will be distributed
to Stanford Investors with allowed claims. In return,
Underwriters seek global peace with respect to all
claims that have been asserted, or could have been
asserted, against Underwriters arising out of, in connection with, or relating to: the events leading to this
Receivership, the Coverage Action, the Third-Party
Coverage Actions, the Indirect Claims, and the Stanford
Investor Claims; all matters that were or could have
been asserted in the Coverage Action, the Third-Party
Coverage Actions, the Indirect Claims, and the
Stanford Investor Claims; the Insurance Policies;
Underwriters’ relationship with the Stanford Entities;7 and any actual or potential claim of coverage
under the Insurance Policies in connection with the
SEC Action, the Receivership, the Indirect Claims, the
Stanford Investor Claims, or any claim asserted
against any person who has ever had any affiliation
with any of the Stanford Entities. Accordingly, the
Settlement is conditioned on the Court’s approval and
entry of this Final Bar Order.
On June 27, 2016, the Receiver filed the Motion.
[ECF No. 2324]. The Court thereafter entered a
Scheduling Order on July 11, 2016 [ECF No. 2333],
7

The term “Stanford Entities” is defined in Paragraph 20 of
the Agreement and Exhibit H to the Agreement.

49a
which, inter alia, authorized the Receiver to provide
notice of the Agreement, established a briefing schedule on the Motion, and set the date for a hearing. On
October 28, 2016, the Court held the scheduled hearing. For the reasons set forth herein, the Court finds
that the terms of the Agreement are adequate, fair,
reasonable, and equitable, and that it should be and is
hereby APPROVED. The Court further finds that
entry of this Final Bar Order is appropriate.
II. ORDER
It is hereby ORDERED, ADJUDGED, AND DECREED
as follows:
1. Terms used in this Final Bar Order that are
defined in the Agreement, unless expressly otherwise
defined herein, have the same meaning as in the
Agreement.
2. The Court has “broad powers and wide discretion to determine the appropriate relief in [this] equity
receivership,” including the authority to enter the
Final Bar Order. SEC v. Kaleta, 530 F. App’x 360, 362
(5th Cir. 2013) (internal quotations omitted). Moreover, the Court has jurisdiction over the subject matter
of this action, and the Receiver is the proper party to
seek entry of this Final Bar Order.
3. The Court finds that the methodology, form,
content and dissemination of the Notice: (i) were
implemented in accordance with the requirements of
the Scheduling Order; (ii) constituted the best practicable notice; (iii) were reasonably calculated, under
the circumstances, to apprise all interested Persons of
the Agreement, the releases therein, and the injunctions provided for in this Final Bar Order and in the
Final Judgments and Bar Orders to be entered in the
Coverage Action and the Third-Party Coverage Actions;

50a
(iv) were reasonably calculated, under the circumstances, to apprise all interested Persons of the right
to object to the Agreement, this Final Bar Order, and
the Final Judgments and Bar Orders to be entered in
the Coverage Action and the Third-Party Coverage
Actions, and to appear at the Final Approval Hearing;
(v) were reasonable and constituted due, adequate,
and sufficient notice; (vi) met all applicable requirements of law, including, without limitation, the Federal Rules of Civil Procedure, the United States
Constitution (including Due Process), and the Rules of
the Court; and (vii) provided to all Persons a full and
fair opportunity to be heard on these matters.
4. The Court finds that the Agreement was
reached following substantial litigation and an
extensive investigation of the facts and resulted from
vigorous, good faith, arm’s-length, mediated negotiations involving experienced and competent counsel.
The competing claims in the Coverage Action and the
Third-Party Coverage Actions involve complex legal
and factual issues that would require a substantial
amount of time and expense to litigate, with uncertainty as to the outcome. The range of possible outcomes includes that there may be no coverage of any
kind under the Insurance Policies, that there may be
less coverage than the amount provided for in the
Agreement, or that there may be more coverage than
the amount provided for in the Agreement. In any
event, the proceeds of the Insurance Policies represent
a finite pool of resources. In the absence of the
Agreement, the proceeds of the Insurance Policies, to
whatever extent they are available, would be dissipated through mere happenstance, rather than
through consideration of equity or fairness.

51a
5. Further, it is clear that Underwriters would
never agree to the terms of the Agreement unless they
were assured of “total peace” with respect to all claims
that have been, or could be, asserted against
Underwriters arising from, in connection with, or
relating to the actual or alleged insurer-insured relationship between Underwriters, on the one hand, and
Underwriters’ Insureds, the Stanford Entities, and the
Stanford Investors, on the other hand.
6. The injunction against any such claims against
Underwriters is therefore a necessary and appropriate
order ancillary to the relief obtained for the Stanford
Entities, and by extension, the victims of the Stanford
Ponzi scheme, pursuant to the Agreement. See Kaleta,
530 F. App’x at 362 (entering bar order and injunction
against investor claims as “ancillary relief” to a settlement in an SEC receivership proceeding).
7. Pursuant to the Agreement and upon motion by
the Receiver, this Court will approve a Distribution
Plan that will fairly and reasonably distribute the net
proceeds of the Settlement Amount (less attorneys’
fees and expenses) to Stanford Investors who have
claims approved by the Receiver. The Court finds that
the Receiver’s claims process and the Distribution
Plan contemplated in the Agreement have been
designed to ensure that all Stanford Investors have
received an opportunity to pursue their claims
through the Receiver’s claims process previously
approved by the Court (ECF No. 1584).
8. The Court further finds that the Parties and
their counsel have at all times complied with the
requirements of Rule 11 of the Federal Rules of Civil
Procedure.

52a
9. Accordingly, the Court finds that the Agreement is, in all respects, fair, reasonable, and adequate,
and in the best interests of all Persons claiming an
interest in, having authority over, or asserting a claim
against Underwriters, Underwriters’ Insureds, the
Stanford Entities, the Receiver, or the Receivership
Estate. The settlement, the terms of which are set
forth in the Agreement, is hereby fully and finally
approved. The Parties are directed to implement and
consummate the Agreement in accordance with its
terms and provisions and this Final Bar Order.
10. Based on the considerations outlined herein,
the Court further finds that the Agreement and this
Order are fair, just, and equitable, notwithstanding
the fact that some individuals who may qualify as
Underwriters’ Insureds will no longer be in a position
to seek insurance coverage from Underwriters for
Stanford-related claims against them that are not
resolved by the Agreement.
11. Pursuant to the provisions of Paragraph 39 of
the Agreement, as of the Settlement Effective Date,
Underwriters and the Underwriters Released Parties
shall be completely released, acquitted, and forever
discharged from all Settled Claims by the Receiver or
the Committee, including any action, cause of action,
suit, liability, claim, right of action, or demand whatsoever, whether or not currently asserted, known, suspected, existing, or discoverable, and whether based
on federal law, state law, foreign law, common law, or
otherwise, and whether based on contract, tort, statute, law, equity or otherwise, that the Receiver, the
Receivership Estate, the Committee, the Claimants,
Underwriters’ Insureds, the Stanford Investors, and
the Persons, entities and interests represented by
those Persons ever had, now has, or hereafter can,

53a
shall, or may have, directly, representatively, derivatively, or in any other capacity, for, upon, arising from,
relating to, or by reason of any matter, cause, or thing
whatsoever, that, in full or in part, concerns, relates
to, arises out of, or is in any manner connected with
(i) the Insurance Policies; (ii) the Stanford Entities;
(iii) any certificate of deposit, CD, depository account,
or investment of any type with any one or more of the
Stanford Entities; (iv) any one or more of Underwriters’ relationships with any one or more of the Stanford
Entities; (v) any actual or potential claim of coverage
under the Insurance Policies in connection with the
SEC Action, the Receivership, the Indirect Claims, the
Stanford Investor Claims, or any claim asserted
against any Stanford Defendant or any other Person
who has ever had any affiliation with any Stanford
Defendant; (vi) the Coverage Action; (vii) the ThirdParty Coverage Actions; (viii) the Indirect Claims; and
(ix) all matters that were or could have been asserted
in SEC Action, the Coverage Action, the Indirect
Claims, the Stanford Investor Claims, and/or the ThirdParty Coverage Actions, or any proceeding concerning
the Stanford Entities pending or commenced in any
Forum.
12. Pursuant to the provisions of Paragraph 40 of
the Agreement, as of the Settlement Effective Date,
the Receivership’s Released Parties shall be completely
released, acquitted, and forever discharged from all
Settled Claims by Underwriters.
13. Notwithstanding anything to the contrary in
this Final Bar Order, the foregoing releases do not
release the Parties’ rights and obligations under the
Agreement or bar the Parties from enforcing or effectuating the terms of the Agreement.

54a
14. The Court hereby permanently bars, restrains
and enjoins the Receiver, the Receivership Estate, the
Committee, the Claimants, the Stanford Investors,
Underwriters’ Insureds, the Interested Parties, and all
other Persons or entities, whether acting in concert
with the foregoing or claiming by, through, or under
the foregoing, or otherwise, all and individually, from
directly, indirectly, or through a third party, instituting, reinstituting, intervening in, initiating, commencing, maintaining, continuing, filing, encouraging,
soliciting, supporting, participating in, collaborating
in, or otherwise prosecuting, against any of the
Underwriters or any of the Underwriters Released
Parties, any action, lawsuit, cause of action, claim,
investigation, demand, complaint, or proceeding of any
nature, including but not limited to litigation, arbitration, or other proceeding, in any Forum, whether individually, derivatively, on behalf of a class, as a member of a class, or in any other capacity whatsoever, that
in any way relates to, is based upon, arises from,
related to, or is connected with (i) the Insurance
Policies; (ii) the Stanford Entities; (iii) any certificate
of deposit, CD, depository account, or investment of
any type with any one or more of the Stanford Entities;
(iv) any one or more of Underwriters’ relationships
with any one or more of the Stanford Entities; (v) any
actual or potential claim of coverage under the
Insurance Policies in connection with the SEC Action,
the Receivership, the Indirect Claims, the Stanford
Investor Claims, or any claim asserted against any
Stanford Defendant or any other Person who has ever
had any affiliation with any Stanford Defendant;
(vi) the Coverage Action; (vii) the Third-Party Coverage Actions; (viii) the Indirect Claims; (ix) the Stanford
Investor Claims; and (x) all matters that were or could
have been asserted in SEC Action, the Coverage

55a
Action, the Indirect Claims, the Stanford Investor
Claims, and/or the Third-Party Coverage Actions, or
any proceeding concerning the Stanford Entities
pending or commenced in any Forum.
15. Underwriters and the Underwriters Released
Parties have no responsibility, obligation, or liability
whatsoever with respect to the content of the Notice;
the notice process; the Distribution Plan; the implementation of the Distribution Plan; the management,
investment, disbursement, allocation, or other administration or oversight of the Settlement Amount, any
other funds paid or received in connection with the
Agreement, or any portion thereof; the payment or
withholding of Taxes; the determination, administration, calculation, review, or challenge of claims to the
Settlement Amount, any portion of the Settlement
Amount, or any other funds paid or received in connection with the Agreement; or any losses, attorneys’ fees,
expenses, vendor payments, expert payments, or other
costs incurred in connection with any of the foregoing
matters. No appeal, challenge, decision, or other matter concerning any subject set forth in this paragraph
shall operate to terminate or cancel the Agreement or
this Final Bar Order.
16. The Court finds entry of the bar order in
exchange for the payment of the Settlement Amount
in accordance with the terms of the Agreement is fair
and reasonable based on at least the following considerations: (i) Underwriters are entitled to exhaust
policy limits by settling with one but not all insureds;
(ii) the insurance proceeds represent a finite pool of
resources available to satisfy claims against Underwriters’ Insureds; (iii) there is a substantial dispute
over the amount of the proceeds available under the
Insurance Policies; (iv) the proceeds of the Insurance

56a
Policies may be less than the Settlement Amount, in
which case the Agreement would result in the exhaustion of the proceeds under the Insurance Policies; (v)
in the absence of a global settlement and bar order,
Underwriters would be unwilling to pay the Settlement Amount and thus allowing any Person to retain
the right to litigate the questions of coverage and
available policy limits could work to the detriment of
all persons interested in the Insurance Policies; (vi) in
the absence of a settlement, the potential beneficiaries
of the Insurance Policies might recover substantially
less than is being made available pursuant to the
Insurance Policies; (vii) the Settlement Amount is fair
and equitable taking into account the merits of the
claims and potential claims released and Underwriters’ defenses to those claims and potential claims; and
(viii) the Agreement represents a fair and reasonable
balancing of the various interests implicated by the
Insurance Policies and disputes and controversies
related thereto.
17. Nothing in this Final Bar Order or the Agreement and no aspect of the Agreement or negotiation
thereof is or shall be construed to be an admission or
concession of any violation of any statute or law, of any
fault, liability or wrongdoing, or of any infirmity in the
claims or defenses of the Parties with regard to any of
the complaints, claims, allegations or defenses in the
Coverage Action, the Indirect Claims, the Stanford
Investor Claims, the Third-Party Coverage Actions, or
any other proceeding.
18. Nothing in this Final Bar Order is intended to
release the Receiver or the Committee’s claims in the
proceedings identified in Exhibit B to the Agreement,
or prevent, bar, restrain, or enjoin the continuation of
such proceedings by the Receiver or the Committee.

57a
19. Underwriters are hereby ordered to deliver the
Settlement Amount ($65,000,000) as described in
Paragraphs 19 and 26 of the Agreement. Further, the
Parties are ordered to act in conformity with all other
provisions the Agreement.
20. Without in any way affecting the finality of this
Final Bar Order, the Court retains continuing and
exclusive jurisdiction over the Parties for purposes of,
among other things, the administration, interpretation, consummation, and enforcement of the Agreement, the Scheduling Order, and this Final Bar Order,
including, without limitation, the injunctions, bar
orders, and releases herein, and to enter orders
concerning implementation of the Agreement, the
Distribution Plan, and any payment of attorneys’ fees
and expenses to the Receiver’s counsel.
21. The Court expressly finds and determines,
pursuant to Federal Rule of Civil Procedure 54(b), that
there is no just reason for any delay in the entry of this
Final Bar Order, which is both final and appealable,
and immediate entry by the Clerk of the Court is
expressly directed.
22. This Final Bar Order shall be served by counsel
for the Receiver, via email, first class mail or international delivery service, on any person or entity that
filed an objection to approval of the Agreement, or this
Final Bar Order.
SIGNED on May 16, 2017.
/s/ David C. Godbey ________________
DAVID C. GODBEY
UNITED STATES DISTRICT JUDGE

58a
APPENDIX E
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
[Filed May 16, 2017]
————
Civil Action No. 3:09-CV-0298-N
————
SECURITIES AND EXCHANGE COMMISSION,
Plaintiff,
v.
STANFORD INTERNATIONAL BANK, LTD. et al.,
Defendants.
————
Civil Action No. 3:09-CV-1736-N
————
CERTAIN UNDERWRITERS AT LLOYD’S OF LONDON, et al.,
Plaintiffs,
v.
RALPH S. JANVEY, RECEIVER, et al.,
Defendants.
————
Civil Action No. 3:13-CV-2226-N
————
CERTAIN UNDERWRITERS AT LLOYD’S OF LONDON, et al.,
Plaintiffs,
v.
PABLO M. ALVARADO, et al.,
Defendants.

59a
————
Civil Action No. 3:15-CV-1997-N
————
CERTAIN UNDERWRITERS AT LLOYD’S OF LONDON, et al.,
Plaintiffs,
v.
PAUL D. WINTER, et al.,
Defendants.
————
Civil Action No. 3:14-CV-3731-N
————
CLAUDE F. REYNAUD, et al.,
Plaintiffs,
v.
CERTAIN UNDERWRITERS AT LLOYD’S OF LONDON, ET AL.,
Defendants.
————
ORDER
This Order addresses the objections1 to the motion
to approve the settlement between Plaintiffs Ralph S.
Janvey (the “Receiver”) and the Official Stanford
Investors Committee (“OSIC”) and Defendants Certain
Underwriters at Lloyd’s of London, Lexington Insurance Co., and Arch Specialty Insurance Co. (collectively, “Underwriters”). This Order also addresses the
Objectors’ motion to compel mediation related to the
settlement. [2441] in the Receivership Action. Neither
1

Docs. 2379, 2387, 2388, 2389, 2390, 2391, 2394, and 2397 in
SEC v. Stanford Int’l Bank, Ltd, Case No. 3:09-CV-298-N (N.D.
Tex.) (the “Receivership Action”).

60a
the objections nor the motion to compel justify rejecting the settlement or ordering additional mediation.
Accordingly, the Court denies the objections and the
motion to compel mediation.
I. THE INSURANCE DISPUTE AND SETTLEMENT
R. Allen Stanford’s Ponzi scheme spawned extensive
civil litgation, including the dispute over insurance
proceeds underlying this proposed settlement. The
facts of Stanford’s scheme are well established, see,
e.g., Janvey v. Democratic Senatorial Campaign Comm.,
712 F.3d 185, 188–89 (5th Cir. 2013) (“DSCC”), and
will not be recounted in great depth here. Essentially,
Stanford’s scheme entailed the sale of fraudulent
certificates of deposit (“CDs”) from an offshore bank
located in Antigua known as Stanford International
Bank Limited (“SIBL”). Although Stanford represented to investors that the CD proceeds were invested
only in low-risk, high-return funds, in reality they
were funneled into speculative private equity investments and used to fund Stanford’s extravagant lifestyle.
The Court appointed the Receiver to take control of
the various entities Stanford used to carry out his
scheme. Among other duties, the Court charged the
Receiver with recovering assets and distributing them
to Stanford’s victims. Those assets include the proceeds of the insurance policies at issue in this dispute.
The dispute over these proceeds began within
months of the Receiver’s appointment to take charge
of the numerous entities in Stanford’s empire. Underwriters issued three policies providing four types of
insurance for the Stanford entities: (1) D & O coverage,
(2) fidelity coverage, (3) professional indemnity cover-

61a
age, and (4) excess wrap coverage (the “Policies”). The
Receiver, on behalf of the insured Stanford entities,
made claims against the Policies (the “Direct Claims”).
Underwriters denied those claims on the basis of
various coverage exclusions. Underwriters then sued
the Receiver seeking a no-coverage declaratory judgment (the “Coverage Action”). The Receiver counterclaimed in the Coverage Action for breach of contract
and other causes of action.
At the same time, the Receiver sued many of the
Policies’ insureds (the “Indirect Claims”). Some of the
defendants in those cases have made or may make
claims against the Policies. Underwriters resisted
those claims as well, arguing that the Policies do not
cover the defendants’ losses or litigation costs. This
has generated yet another set of lawsuits to resolve
coverage issues between Underwriters and the putative insureds (the “Third-Party Coverage Actions”).
To protect his claims to the Policies’ proceeds, the
Receiver has intervened or sought to intervene in the
Third-Party Coverage Actions.
Attorney’s fees and other costs began eroding the
available proceeds as litigation progressed. The
Receiver took the position that approximately $101
million remains under the policy limits; Underwriters
say that only $46 million remains. After several years
of combat and multiple mediation sessions, the Receiver,
OSIC, the court-appointed Examiner, and Underwriters reached an agreement for a global settlement of the
dispute over the amount of the policy limits and the
extent of coverage for claims arising from Underwriters’ relationship with Stanford.
The agreement resulting from these extended negotiations requires Underwriters to make a $65 million
payment to the Receivership Estate, which would be

62a
distributed through the Receiver’s claims and distribution process. In exchange for the $65 million payment, Underwriters would obtain global peace related
to Stanford claims by way of various releases, final
judgments, and bar orders. These bar orders, which
would enjoin all other Stanford-related claims against
Underwriters, are at the heart of the objections to the
settlement. The objections to the settlement all essentially posit that the Court cannot or should not bar the
Objectors’ claims in the proposed manner.
II. THE LAW GOVERNING SETTLEMENT APPROVAL IN EQUITABLE RECEIVERSHIPS
“[N]o federal rules prescribe a particular standard
for approving settlements in the context of an equity
receivership.” S.E.C. v. Kaleta, 2012 WL 401069, at *4
(S.D. Tex. 2012) (“Kaleta I”) (quoting Gordon v. Dadante,
336 F. App’x 338, 340 (6th Cir. 2009)). Instead, the
Court “has broad powers and wide discretion to determine the appropriate relief.” S.E.C. v. Kaleta, 530 F.
App’x 360, 362 (5th Cir. 2013) (“Kaleta II”) (quoting
SEC v. Safety Fin. Serv., 674 F.2d 368, 372–73 (5th
Cir. 1982)).
Among a district court’s powers related to administering an equity receivership is the power to issue
ancillary relief measures. Id. (quoting SEC v. Wencke,
622 F.2d 1363, 1369 (9th Cir. 1980)). Ancillary relief
in SEC enforcement actions may include “injunctions
to stay proceedings by nonparties against the receivership.” Id. Courts use ancillary relief in the form of bar
orders to secure settlements in receivership proceedings and to “preserve the property placed in receivership pursuant to SEC actions.” Kaleta I, 2012 WL
401069, at *3 (citing S.E.C. v. Byers, 609 F.3d 87, 92
(2d Cir. 2010)). Courts have not limited the use of bar
orders to barring claims against receiverships only;

63a
courts have also used bar orders to bar claims against
third parties settling with receiverships. See id. at *8
(approving settlement and bar order prohibiting thirdparty claims against nonreceivership entities) (aff’d
Kaleta II, 530 F. App’x at 362–63); S.E.C. v. Kaleta,
2013 WL 2408017, at *6–8 (S.D. Tex. 2013) (“Kaleta
III”) (approving bar order prohibiting third-party claims
by insureds against insurance company that issued
policies to defendant in receivership proceeding).
Courts utilize bar orders if they are both necessary
to effectuate a settlement and “fair, equitable, reasonable, and in the best interest of the Receivership
Estate.” Kaleta III, 2013 WL 2408017, at *6. To determine whether it is necessary to stay proceedings by
nonparties to a receivership settlement, courts consider a variety of factors, including “(1) the value of the
proposed settlement, (2) the value and merits of the
Receiver’s potential claims, (3) the value and merits of
any foreclosed parties’ potential claims, the complexity
and costs of future litigation, (4) the risk that litigation
costs would dissipate Receivership assets, (5) the
implications of any satisfaction of an award on other
claimants, (6) and any other equities attendant to the
situation.” Kaleta I, 2012 WL 401069, at *4 (citing
Liberté Capital Grp., LLP v. Capwill, 462 F.3d 543,
553 (6th Cir. 2006); Wencke, 622 F.2d at 1371; Gordon,
336 F. App’x at 544, 549).
The power to bar nonsettling-party litigation
against nonreceiver settling parties is not unlimited.
Rather, “the exercise of this authority is always subject to other limitations, statutory and constitutional,
which limit the jurisdiction of federal courts.” S.E.C.
v. Parish, 2010 WL 8347143, at * 5 (D.S.C. 2010). But
the Court’s jurisdiction does extend to all assets of the
receivership estate, giving the Court “power under the

64a
All Writs Act to issue injunctions to protect the estate’s
choses of action . . . including any settlement reached
in connection with those claims.” Id.
III. THE OBJECTIONS TO THE INSURANCE
SETTLEMENT ARE UNAVAILING
The Receiver and Underwriters invoke the authorities cited above to justify approval of the settlement
and bar orders. The motion to approve the settlement
drew objections from a number of individuals who fear
the bar orders will cut off their claims to the Policies’
proceeds. The Court denies the objections because the
bar orders are necessary to effectuate a fair, reasonable, equitable settlement that is in the best interests
of the Receivership Estate.
A. The Clawback Objections
The Clawback Objections2 come from defendants in
the Receiver’s actions to recoup CD proceeds from
former Stanford employees. The Clawback Objections
argue that the Court lacks the power to bar their
claims against Underwriters; that the settlement
cannot be approved without the Court first holding an
evidentiary hearing; and that the bar order is unfair
to these defendants.
1. The Court Can Issue the Bar Orders. – A variety
of authorities, noted above, allow the Court to issue
bar orders as ancillary relief in administering a large
and complex receivership such as this one. Some Objectors cite various distinctions between the present case
and the cases relied upon to support the Court’s authority to issue these bar orders. “However, receivership
cases are highly fact-specific,” and distinctions in prec-

2

Docs. 2387, 2388, 2389, 2394, 2397.

65a
edent do not necessarily mandate different outcomes.
Kaleta I, 2012 WL 401069, at *7.
The circumstances here justify these bar orders for
the same reasons that courts have used bar orders in
similar circumstances. See, e.g., S.E.C. v. Parish, 2010
WL 8347143, at *6–7 (D.S.C. 2010). The Receiver and
the Objectors all claim entitlement to a limited pool of
proceeds. Underwriters has resisted all of those claims
as uninsurable or excluded from coverage under the
Policies’ terms. If the claims are excluded, then the
Receivership Estate and the Objectors will both obtain
nothing from the Policies. If the exclusions do not
apply, many claims will still go unpaid because the
dollar amount of claims against the Policies – in the
billions of dollars – far exceeds the available amounts
under the policy limits. The Receiver and Underwriters have reached this agreement to limit the risks to
each of a litigated outcome. Both the Receiver and
Underwriters have represented to the Court, and the
Court accepts, that without the bar orders there is no
settlement.
The settlement obtains a payment that represents
at least a significant portion, if not more than, the
available proceeds of the Policies. Distribution
through the Receiver’s claims process maximizes the
recovery for the greatest number of injured parties.
Some Objectors argue that the Stanford investors
have no right to the proceeds, which should instead be
distributed to the Policies’ insureds. But the Court has
previously held that the Policies and their proceeds
are an asset of the Receivership Estate. Order 6 [926]
in the Receivership Action. The Receivership Estate’s
claimants are entitled to their share of the Receivership Estate’s assets, pursuant to Court-approved distribution plans. Thus, the injured Stanford investors,

66a
as Receivership Estate claimants, are entitled to the
proceeds from these policies as distributions of Receivership Estate assets. This would be true whether the
proceeds were consumed by the Receiver obtaining a
judgment for the full amount of the proceeds or by way
of a settlement and bar order. Because the settlement
advances the purpose of the Receivership and is the
most fair and efficient way to distribute the Policies’
proceeds to the broadest scope of claimants, and the
bar orders are a necessary part of that settlement, the
Court concludes that such orders are within its equity
power.
2. The Objectors Are Not Entitled to an Evidentiary Hearing. – The authority the Clawback Objections rely upon for their claimed right to an evidentiary hearing is not applicable here. In PendergestHolt v. Certain Underwriters at Lloyd’s of London, 600
F.3d 562 (5th Cir. 2010), the Fifth Circuit reviewed a
District Court’s preliminary injunction barring an
insurer from refusing to pay an insured’s defense
costs. 600 F.3d at 565. The insurer denied coverage
based on its assertion that the policy’s money laundering exception applied to bar coverage. Id. at 566. The
District Court found that the exclusion “most likely
would not preclude coverage” and thus enjoined the
insurer from withholding payment. Id. at 568. The
insurer appealed, arguing that the exclusion precluded coverage. Id. The Fifth Circuit held that before
it could determine if the exclusion applied, it must
decide (1) whether only a court, as opposed to the
insurer, can determine if the exclusion applied; and (2)
whether that determination must be based on only the
complaint and the policy as opposed to all admissible
evidence. Id. at 570, 573–74. The Fifth Circuit concluded that the policy language required a judicial
determination before the exclusion allowed the insurer

67a
to withhold payment, and that a court making that
determination may consider evidence beyond the
“eight corners” of the policy and complaint. Id. at 574.
This authority has no bearing on whether the Court
can approve the settlement and bar orders here. The
Court is not determining whether exclusions apply
under the Policies; it is deciding whether the settlement is fair, reasonable, equitable, and in the best
interests of the receivership and whether the bar
orders are necessary to secure that settlement. Even
assuming that the exclusions do not apply, the Objectors are unlikely to recover any of the proceeds
because the exclusions would likewise not apply to the
Receiver, who has already obtained judgments and
made demands in excess of the policy limits. These
judgments would exhaust the policies and leave nothing for the Objectors. Thus, there need not be an evidentiary hearing and judicial exclusion determination
as a predicate to approving the settlement and bar
order.
3. Approving the Settlement and Bar Order is the
Best Available Alternative. – The Court is not persuaded
that the alleged harms suffered by the Clawback
Objectors are sufficient to justify rejection of the settlement and bar orders. Resolving the Stanford receivership would undoubtedly be easier if there were
sufficient assets to satisfy all of the claims resulting
from Stanford’s scheme. But that is not the reality in
which the Court administers this receivership. Because
on balance the unfairness alleged by the Objectors is
either mitigated by other circumstances or simply
outweighed by the benefit of the settlement in terms
of fairness, equity, reasonableness, and the best interests of the receivership, the Court overrules the objec-

68a
tions related to the fairness of the settlement and bar
orders.
First, the practical value of the Objectors’ foreclosed
claims is not as great as they argue. As discussed
above, these claims are unlikely to be realized regardless of whether the Court approves this settlement
because either an exclusion will bar coverage, the
Court will find the claims uninsurable, or the Receiver’s
judgments will consume the remaining coverage.
Thus, barring the claims does not prejudice the Objectors in a meaningful way. Additionally, the Objectors
are not completely losing access to the Policies’ proceeds as they had the opportunity, seized by many
Objectors, to file claims in the receivership. Thus, in
considering the value of the foreclosed claims, these
circumstances weigh significantly against the alleged
unfairness.
Second, to the extent that the Objectors are suffering an injury from this settlement and the bar orders,
that injury is but one factor in the analysis of the
settlement and bar order. See Kaleta I, 2012 WL
401069, at *4 (listing factors considered in determining necessity of bar orders as part of receivership
settlement). Based on these factors, finding the overall
settlement fair, reasonable, equitable, and in the best
interests of the Receivership Estate does not necessarily require that the Court find the settlement to be
a net benefit to every nonsettling party. Indeed, given
the limited assets available for distribution and the
costs involved in obtaining them, it is hard to envision
a significant settlement in the Stanford cases that
would be viewed favorably by all interested parties. As
detailed in the orders approving the settlement, issued
on this same date, these factors weigh in favor of
settlement approval.

69a
Finally, the Objectors argue that the settlement not
only harms them but does so in a procedurallydeficient manner. But the Court is acting within its
powers in administering an equity receivership. Those
powers are cabined by various rules and statutes, and
the Court takes this action only after giving notice, a
process for filing objections, and holding a hearing
regarding the action under consideration. Additionally, the Objectors have long had notice that the
Policies’ proceeds were assets of the receivership estate
and that the Receiver was actively pursuing recoveries
in excess of the Policies coverage. Finally, the Objectors also had notice that if they thought they were
entitled to a portion of the Receivership Estate, they
could file a claim in the Receiver’s claims and distribution process. Thus, the Court concludes that the Objectors had sufficient procedural protection in the determination of whether the bar orders are necessary to
secure an equitable settlement.
B. The Breach of Fiduciary Duty Objections
The Breach of Fiduciary Duty Objections3 assert
some of the same fairness arguments as the Clawback
Objectors, along with additional objections related to
their specific situations. To the extent that their arguments overlap with the Clawback Objections, the
Court denies their objections. The Court also denies
the Breach of Fiduciary Duty Objections on their
individual grounds.
Objector Cordell Haymon argues that barring his
claims against Underwriters is unfair because he
relied on previous court orders concerning payment of
defense costs when he decided to settle the Stanfordrelated claims against him. The order Haymon relies
3

Docs. 2379, 2394, and 2397.

70a
on does not justify rejecting this settlement. In
October 2009 the Court allowed, but did not mandate,
access to the Policies’ proceeds for insured Stanford
directors and officers if they were entitled to access
those proceeds. Order 8–9 [831] in the Receivership
Action. The Court noted that its holding did not itself
entitle anyone to the Policies’ proceeds. Id. at 8.
Underwriters denied Haymon’s claim for coverage
years before he settled with the Receiver and OSIC.
Thus, Haymon could not have reasonably expected
reimbursement as a condition precedent to his settlement with the Receiver and OSIC. Haymon continued
to press his claims by suing Underwriters. However,
to treat his claim to the proceeds differently based on
how he pursued the proceeds would give him an unfair
priority over the other claimants to the Policies. This
would encourage a “race to the courthouse,” an outcome less fair in the full context of this receivership
than distributing the proceeds through the Receiver’s
distribution process.
C. The Louisiana Direct Action Objections
The Louisiana Direct Action Objections come from
two groups of Stanford investors who are asserting
direct claims against Underwriters in Louisiana state
court through that state’s direct action statute. These
objections do not require that the Court reject the
settlement and bar orders.
1. The Anti-Injunction Act Does Not Preclude
These Bar Orders. – The Anti-Injunction Act prohibits
a federal court from staying proceedings in a state
court unless certain exceptions apply. 28 U.S.C. § 2283.
The Louisiana objectors argue that the Bar Order
would improperly enjoin their pending lawsuits in
Louisiana state court without fitting into one of the
statutory exceptions. The Movants dispute whether

71a
the Anti-Injunction Act applies at all. The Court need
not determine whether the Anti-Injunction Act
applies, however, because even if it does, so does one
of its exceptions.
The Anti-Injunction Act allows federal courts to
enter injunctions against pending state court proceedings if doing so is necessary to aid the court’s jurisdiction or to protect or effectuate the court’s judgments.
28 U.S.C. § 2283. Enjoining related state court
litigation is an important part of the Court’s ability to
effectively manage complex nationwide cases like the
Stanford MDL. See, e.g., Three J Farms, Inc. v.
Plaintiffs’ Steering Comm. (In re Corrugated Container
Antitrust Litig.) 659 F.2d 1332, 1334–35 (5th Cir.
1981); In re Diet Drugs, 282 F.2d 220, 235–35 (3d Cir.
2002). In managing this receivership, the Court has
already enjoined state court litigants from using state
court proceedings to attempt to take control of assets
of the Receivership Estate. Likewise here, the Court
has already assumed exclusive jurisdiction over the
proceeds of these insurance policies and required the
Receiver to pursue them as assets of the Receivership
Estate. The possibility of state court judgments favoring individual litigants has the potential to interfere
with this Court’s judgments about Receivership assets.
Thus, the bar order is necessary to “preserve and aid
this court’s jurisdiction over the receivership estate.”
Parish, 2010 WL 8347143, at *7.
2. Louisiana World, DSCC, and Troice Do Not
Apply. – The Louisiana Objectors argue that various
mandatory authorities, Stanford-related and otherwise, prohibit the Court from entering the bar orders.
First, they cite Louisiana World Exposition, Inc. v.
Federal Ins. Co. (In re Louisiana World), 832 F.2d
1391 (5th Cir. 1987) for the proposition that a court
may not enjoin an insured party from accessing a

72a
policy’s proceeds based on the debtor merely owning
the policy. Louisiana World does not apply here,
however, because in that case the debtor entity was
not covered by the policy it owned. Id. at 1398. In that
case, the policy “[did] not cover the liability exposure
of the [entity] at all, but only of its directors and
officers . . . .” Id. at 1401. Here, in contrast, the Receivership Estate has a right to the proceeds because the
Policies insured the entities in receivership. As noted
by the Fifth Circuit in Louisiana World, “[t]here are
a great many bankruptcy cases holding that liability
insurance policies that provide coverage for the bankrupt’s liability belong to the bankrupt’s estate.” Id. at
1399. Because the proceeds are part of the Receivership Estate, Louisiana World does not prohibit the
Court from entering the bar orders.
Second, the Louisiana Objectors cite DSCC for the
proposition that the Receiver has standing to assert
only the claims of the entities in receivership and not
investor claims. See DSCC, 712 F.3d at 192. Because
the investor claims do not belong to the Receiver, the
Objectors argue, the Receiver has no standing to settle
them. But that is not what is happening here. The bar
orders are not settling claims, they are enjoining them.
Based on the other authorities cited above, this is a
permissible exercise of the Court’s authority in administering a receivership. Thus, DSCC does not mandate
rejection of the settlement and bar orders.
Finally, the Louisiana Objectors cite Chadbourne &
Parke, LLP v. Troice, 134 S. Ct. 1058 (2014) for the
proposition that the Objectors’ state law claims, which
were remanded to Louisiana state court, are beyond
the reach of this Court’s jurisdiction. The Supreme
Court in Troice was addressing whether the Securities
Litigation Uniform Standards Act prohibited the

73a
Louisiana Objectors’ state law claims. Id. at 1062. But
the fact that a statute did not prohibit the assertion of
state law claims has little bearing on the questions
presented here about whether the Court can or should
enjoin related litigation as part of a receivership settlement. Accordingly, Troice does not require rejection
of the settlement and bar orders.
IV. THE COURT DENIES THE MOTION TO
COMPEL
Some Objectors also filed a joint motion to compel
mediation. The Receiver, Underwriters, OSIC, and the
Examiner all oppose further mediation. Because ordering such mediation at this stage and on these issues is
unlikely to resolve the Objectors’ concerns while assuredly imposing significant additional costs on all parties involved, the Court denies the motion to compel
mediation.
CONCLUSION
The Court denies the objections to the Insurance Settlement and denies the Objectors’ motion to compel.
Signed May 16, 2017.
/s/ David C. Godbey _______
David C. Godbey
United States District Judge

74a
APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
[Filed May 16, 2017]
————
Civil Action No. 3:09-CV-0298-N
————
SECURITIES AND EXCHANGE COMMISSION,
Plaintiff,
v.
STANFORD INTERNATIONAL BANK, LTD., et al.,
Defendants.
————
Civil Action No. 3:09-cv-01736-N
————
CERTAIN UNDERWRITERS AT LLOYD’S OF LONDON, et al.,
Plaintiffs,
v.
RALPH S. JANVEY, IN HIS CAPACITY AS
COURT APPOINTED RECEIVER FOR STANFORD
INTERNATIONAL BANK, LTD., et al.,
Defendants.
————
Civil Action No. 3:13-CV-2226-N
————
CERTAIN UNDERWRITERS AT LLOYD’S OF LONDON, et al.,
Plaintiffs,
v.
PABLO M. ALVARADO, et al.,
Defendants.

75a
————
Civil Action No. 3:15-cv-1997-N
————
CERTAIN UNDERWRITERS AT LLOYD’S OF LONDON, et al.,
Plaintiffs,
v.
PAUL D. WINTER, et al.,
Defendants.
————
Civil Action No. 3:14-CV-3731-N
————
CLAUDE F. REYNAUD, et al.,
Plaintiffs,
v.
CERTAIN UNDERWRITERS AT LLOYD’S OF LONDON, et al.,
Defendants.
————
ORDER APPROVING ATTORNEYS’ FEES
Before the Court is the Expedited Request for Entry
of Scheduling Order and to Stay Related Litigation
and Motion to Approve Proposed Settlement with
Certain Underwriters at Lloyd’s of London, Lexington
Insurance Company, and Arch Specialty Insurance
Co., to Enter the Bar Order, to Enter the Coverage
Action Judgment and Bar Order, to Enter the ThirdParty Coverage Actions Judgments and Bar Orders,
and for the Movants’ Attorneys’ Fees. [ECF No. 2324].
This Order addresses the request for approval of a $14
million attorneys’ fee to Kuckelman Torline Kirkland
& Lewis (“Kuckelman Torline”) and $100,000 to
Movants’ counsel in the litigation against Claude

76a
Reynaud contained within the Motion. All relief
requested in the Motion other than the request for
approval of attorneys’ fees was addressed in the
Court’s Final Judgment and Bar Order entered on
May 16, 2017 [ECF No. 2519].
With respect to Movants’ request for approval of
their attorneys’ fees, the Court finds that the $14 million fee to Kuckelman Torline is reasonable and less
than the percentage charged and approved by courts
in other cases of this magnitude and complexity. The
Stanford Receivership’s insurance-related issues and
claims are extraordinarily complex and time-consuming and have involved a great deal of risk and capital
investment by Kuckelman Torline as evidenced by the
Declaration of Michael J. Kuckelman, submitted in
support of the request for approval of their fees. Both
the Motion and the Declaration provide ample evidentiary support for the award of the Receiver’s attorneys’
fees set forth in this Order.
Trial courts can determine attorneys’ fee awards in
common fund cases such as this one using different
methods. The common fund doctrine applies when a
“litigant or lawyer who recovers a common fund for the
benefit of persons other than himself or his client
is entitled to a reasonable attorney’s fee from the
fund as a whole.” In re Harmon, No. 10-33789, 2011
WL 1457236, at *7 (Bankr. S.D. Tex. Apr. 14, 2011)
(quoting Boeing Co. v. Van Gemert, 444 U.S. 4721, 478
(1980)).
One method for analyzing an appropriate award for
attorneys’ fees is the percentage method, under which
the court awards fees based on a percentage of the
common fund. Union Asset Management Holding A.G.
v. Dell, Inc. 669 F.3d 632, 642-43 (5th Cir. 2012). The
Fifth Circuit is “amendable to [the percentage meth-

77a
od’s] use, as long as the Johnson framework is utilized
to ensure that the fee award is reasonable.” Id. At 643
(citing Johnson v. Georgia Hwy. Express, Inc., 488
F.2d 714 (5th Cir. 1974)). The Johnson factors include:
(1) time and labor required; (2) novelty and difficulty
of the issues; (3) required skill; (4) whether other
employment is precluded; (5) the customary fee;
(6) whether the fee is fixed or contingent; (7) time limitations; (8) the amount involved and the results
obtained; (9) the attorneys’ experience, reputation,
and ability; (10) the “undesirability” of the case;
(11) the nature and length of the professional relationship with the client; and (12) awards in similar cases.
See Johnson, 488 F.2d at 717-9.
Thus, when considering fee awards in class action
cases “district courts in [the Fifth] Circuit regularly
use the percentage method blended with a Johnson
reasonableness check.” Id, (internal citations omitted);
see Schwartz v. TXU Corp., No. 3:02-CV-2243-K (lead
case), 2005 WL 3148350, at *25 (N.D. Tex. Nov.8,
-2005) (collecting cases). While the Fifth Circuit has
also permitted analysis of fee awards under the
lodestar method, both the Fifth Circuit and district
courts in the Northern District have recognized that
the percentage method is the preferred method of
many courts. Dell, 669 F.3d at 643; Schwartz, 2005 WL
3148350, at *25. In Schwartz, the court observed that
the percentage method is “vastly superior to the
lodestar method for a variety of reasons, including the
incentive for counsel to ‘run up the bill’ and the heavy
burden that calculation under the lodestar method
places upon the court.” 2005 WL 3148350, at *25. The
court also observed that, because it is calculated based
on the number of attorney-hours spent on the case, the
lodestar method deters early settlement of disputes.
Id. Thus, there is a “strong consensus in favor of

78a
awarding attorneys’ fees in common fund cases as a
percentage of the recovery.” Id. At *26.
While the Insurance Settlement is not a class action
settlement, because the settlement is structured as a
settlement with the Receivership Estate, with Bar
Orders, and dismissal of certain litigation and Judgments, this Court has analyzed the award of attorneys’
fees to Kuckelman Torline under both the common
fund and the Johnson approach. Whether analyzed
under the common fund approach, the Johnson framework, or both, the $14 million fee sought by the
Receiver’s counsel pursuant to their Agreement with
the Receiver Movant is reasonable and is hereby
approved by the Court.
Having reviewed the Declaration of Michael J.
Kuckelman and the thousands of hours invested in the
insurance-related issues and litigation, the Court
finds that the proposed $14 million fee for Kuckelman
Torline is a reasonable percentage of the common fund
(i.e. the $65 million settlement). “The vast majority of
Texas federal courts and courts in this District have
awarded fees of 25%-33% in securities class action.”
Schwartz, 2005 WL 3148350, at *31 (collecting cases).
“Indeed, courts throughout this Circuit regularly
award fees of 25% and more often 30% or more of the
total recovery under the percentage-of-the-recovery
method.” Id. The requested fee is 21.5% of the settlement, so it is less than the 25%-33% commonly awarded by this Circuit and it is reasonable.
A review of the Johnson factors that are discussed
at length in the Motion and supported by the
Declarations also demonstrates that the proposed $14
million fee is reasonable and should be approved.

79a
With respect to the time and labor required,
Kuckelman Torline invested a tremendous amount of
time and labor in this case, as reflected in the
Kuckelman Declaration. Kuckelman Torline has spent
over two years and thousands of hours investigating
and pursuing claims against Underwriters on behalf
of the Stanford Receivership Estate and the Stanford
Investors.
The issues presented in the insurance litigation
were novel, difficult, and complex. Several of the complex legal and factual issues are outlined in the
Motion. Given the complexity of the factual and legal
issues presented in this case, the preparation, prosecution, and settlement of this case required significant
skill and effort on the part of Kuckelman Torline.
Although participation in the insurance litigation did
not necessarily preclude Kuckelman Torline from
accepting other employment, the Declaration reveals
that the sheer amount of time and resources involved
in investigating, preparing, and prosecuting the coverage litigation, as reflected by the hours invested by
Kuckelman Torline, significantly reduced Kuckelman
Torline’s ability to devote time and effort to other
matters.
The $14 million fee requested is also well below the
typical market rate contingency fee percentage of 33%
to 40% that most law firms would demand to handle
cases of this complexity and magnitude. See Schwartz,
2005 WL 3148350, at *31 (collecting cases and noting
that 30% is standard fee in complex securities cases).
It is also well below the 33 1/3% contracted for by the
Receiver and Kuckelman Torline.
The $65 million to be paid by Underwriters represents a substantial settlement and value to the Receivership. This factor also supports approval of the

80a
requested fee. The Declaration further reflects that
Kuckelman Torline has represented numerous Lloyd’s
of London insurers in complex litigation matters.
Thus, the attorneys’ experience, reputation, and ability also supported the fee award. The nature and
length of the professional relationship between the
Receiver and his Counsel further supports the fee
award, because Kuckelman Torline was retained to
work on only insurance related issues and litigation.
Unlike other counsel working for the Receivership on
a contingency fee basis, this is Kuckelman Torline’s
only opportunity to recover its significant time investment.
Finally, awards in similar cases, with which this
Court is familiar, as well as those discussed in the
Schwartz opinion, all support the fee award. The
Court also notes that a 25% contingency fee has previously been approved as reasonable by this Court for
other counsel representing the Receiver. See SEC
Action ECF No. 2231. Thus, the Court finds a fee of
less than 25% is well within the range of reasonableness for cases of the magnitude and complexity of the
insurance related issues and litigation.
For these reasons, the Court hereby approves the
award of attorneys’ fees in the amount of $14 million
to Kuckelman Torline as requested in the Motion. The
Receiver is, therefore, ORDERED to pay Kuckelman
Torline Kirkland & Lewis attorneys’ fees in the
amount of $14 million upon receipt of the Settlement
Amount in accordance with the terms of the Insurance
Settlement Agreement.
The Court also finds that the $100,000 award of
attorneys’ fees to Movants’ counsel in the Reynaud
litigation is reasonable and approved for the reasons
set forth in the Court’s Order Approving Attorneys’

81a
Fees in the Breazeale, Sachse & Wilson, LLP litigation. [SEC Action, ECF. No. 2231]. The Receiver is,
therefore, ORDERED to pay Movants’ counsel in the
Reynaud litigation attorneys’ fees in the amount of
$100,000 upon receipt of the Settlement Amount.
SIGNED on May 16, 2017.
/s/ David C. Godbey _______
David C. Godbey
United States District Judge

82a
APPENDIX G
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
[Filed October 3, 2017]
————
Civil Action No. 3:09-CV-0298-N
————
SECURITIES AND EXCHANGE COMMISSION,
Plaintiff,
v.
STANFORD INTERNATIONAL BANK, LTD., et al.,
Defendants.
————
Civil Action No. 3:09-CV-1736-N
————
CERTAIN UNDERWRITERS AT LLOYD’S OF LONDON, et al.,
Plaintiffs,
v.
RALPH S. JANVEY, RECEIVER, et al.,
Defendants.
————
Civil Action No. 3:13-CV-2226-N
————
CERTAIN UNDERWRITERS AT LLOYD’S OF LONDON, et al.,
Plaintiffs,
v.
PABLO M. ALVARADO, et al.,
Defendants.
————

83a
Civil Action No. 3:15-CV-1997-N
————
CERTAIN UNDERWRITERS AT LLOYD’S OF LONDON, et al.,
Plaintiffs,
v.
PAUL D. WINTER, et al.,
Defendants.
————
Civil Action No. 3:14-CV-3731-N
————
CLAUDE F. REYNAUD, et al.,
Plaintiffs,
v.
CERTAIN UNDERWRITERS AT LLOYD’S OF LONDON, et al.,
Defendants.
————
ORDER
This Order addresses Objectors Former Employees’
motion for new trial, [2530] in SEC v. Stanford Int’l
Bank, Ltd., Case No. 3:09-CV-298-N (N.D. Tex) (the
“Receivership Action”); Objectors Scott Notowich, Eddie
Rollins, and Doug McDaniels’ motion for new trial,
[2533] in the Receivership Action; and Objector Cordell
Haymon’s motion for reconsideration, [2539] in the
Receivership Action (collectively, the “Rule 59 Motions”).
Because either the Court has previously addressed
Objectors’ arguments or they have been waived, the
Court denies the Rule 59 Motions.
Objectors Former Employees argue that their claims
for losses against Certain Underwriters at Lloyd’s of
London, Lexington Insurance Co., and Arch Specialty

84a
Insurance Co. (collectively, “Underwriters”) are not
property of the Receivership Estate. However, the
Court previously addressed this argument when it
held that the insurance policies and their proceeds are
indeed an asset of the Receivership Estate. See Order
8 [2518] in the Receivership Action (citing Order 6
[926] in the Receivership Action). Objectors also
argue that the Court does not have the authority to
permanently bar independent rights between nonReceivership third parties without consent or just
compensation. But, the Court previously addressed
this argument when it determined that it does have
the authority to issue the bar orders. See id. at 7–9.
Objectors further argue that they receive no material
benefit from the settlement and bar orders. However,
the Court previously addressed this argument by
explaining that distribution of the settlement amount
through the Receiver’s claims process maximizes
recovery, a material benefit, for the greatest number
of involved parties, including Objectors. Id. at 8–11.
Objectors finally argue that the settlement is unfair
and unnecessarily burdensome on Objectors. But, the
Court previously addressed this argument by establishing that the settlement is the “most fair” means
through which to distribute the policies’ proceeds. Id.
at 9; see also id. at 10–11.
Objectors Notowich, Rollins, and McDaniels argue
that the settlement takes Objectors’ contractual rights
in insurance coverage for public use without just compensation. However, Objectors have not raised this
argument until this stage in the litigation and have
therefore waived it. Objectors also argue that the settlement violates principles of fairness, as Objectors’
interests were not represented in the settlement negotiations and the Receiver’s decision to exclude Objectors in these negotiations was arbitrary and capricious.

85a
But, as already mentioned, the Court previously
addressed this argument when it determined that the
settlement is the “most fair” means through which to
distribute the insurance policies’ proceeds, even without Objectors’ involvement in the negotiations. Id. at
9; see also id. at 10–11. Objectors further argue that
the Due Process Clause entitles them to an adversarial
adjudicative process that allows for cross-examination,
which must take place before their vested rights
can be extinguished. However, the Court previously
addressed this argument when it deemed that the
Objectors had been provided “sufficient procedural
protection.” Id. at 12; see also id. at 9–10. Objectors
finally argue that the settlement deprives them of
equal protection under the law. But, Objectors have
not raised this argument until this stage in the litigation and have therefore waived it.
In addition to incorporating by reference other Objectors’ previously addressed or waived arguments, Objector Cordell Haymon argues that Underwriters have a
legal obligation to pay his losses and that the settlement unfairly rewards others at his expense. However,
as already mentioned, the Court previously addressed
this argument when it explained that distribution of
the settlement amount through the Receiver’s claims
process maximizes recovery for the greatest number of
involved parties, including Objector. Id. at 8–11.
Accordingly, the Court denies the Rule 59 motions.
Signed October 3, 2017.
/s/ David C. Godbey _______
David C. Godbey
United States District Judge

86a
APPENDIX H
28 U.S.C.A. § 2283
§ 2283. Stay of State court proceedings
A court of the United States may not grant an
injunction to stay proceedings in a State court except
as expressly authorized by Act of Congress, or where
necessary in aid of its jurisdiction, or to protect or
effectuate its judgments.

87a
APPENDIX I
La. R.S. 22:1269
Formerly cited as La. R.S. 22:655
§ 1269. Liability policy; insolvency or bankruptcy of insured and inability to effect service
of citation or other process; direct action against
insurer
A. No policy or contract of liability insurance shall be
issued or delivered in this state, unless it contains
provisions to the effect that the insolvency or bankruptcy of the insured shall not release the insurer from
the payment of damages for injuries sustained or loss
occasioned during the existence of the policy, and any
judgment which may be rendered against the insured
for which the insurer is liable which shall have become
executory, shall be deemed prima facie evidence of the
insolvency of the insured, and an action may thereafter be maintained within the terms and limits of the
policy by the injured person, or his survivors, mentioned in Civil Code Art. 2315.1, or heirs against the
insurer.
B. (1) The injured person or his survivors or heirs
mentioned in Subsection A of this Section, at their
option, shall have a right of direct action against the
insurer within the terms and limits of the policy; and,
such action may be brought against the insurer alone,
or against both the insured and insurer jointly and in
solido, in the parish in which the accident or injury
occurred or in the parish in which an action could be
brought against either the insured or the insurer
under the general rules of venue prescribed by Code of
Civil Procedure Art. 42 only; however, such action may
be brought against the insurer alone only when at
least one of the following applies:

88a
(a) The insured has been adjudged bankrupt by
a court of competent jurisdiction or when proceedings
to adjudge an insured bankrupt have been commenced
before a court of competent jurisdiction.
(b) The insured is insolvent.
(c) Service of citation or other process cannot be
made on the insured.
(d) When the cause of action is for damages as a
result of an offense or quasi-offense between children
and their parents or between married persons.
(e) When the insurer is an uninsured motorist
carrier.
(f) The insured is deceased.
(2) This right of direct action shall exist whether or
not the policy of insurance sued upon was written or
delivered in the state of Louisiana and whether or not
such policy contains a provision forbidding such direct
action, provided the accident or injury occurred within
the state of Louisiana. Nothing contained in this Section shall be construed to affect the provisions of the
policy or contract if such provisions are not in violation
of the laws of this state.
C. It is the intent of this Section that any action
brought under the provisions of this Section shall be
subject to all of the lawful conditions of the policy or
contract and the defenses which could be urged by the
insurer to a direct action brought by the insured, provided the terms and conditions of such policy or contract are not in violation of the laws of this state.
D. It is also the intent of this Section that all liability
policies within their terms and limits are executed for
the benefit of all injured persons and their survivors
or heirs to whom the insured is liable; and, that it is

89a
the purpose of all liability policies to give protection
and coverage to all insureds, whether they are named
insured or additional insureds under the omnibus
clause, for any legal liability the insured may have as
or for a tortfeasor within the terms and limits of the
policy.

90a
APPENDIX J
La. R.S. 51:714
§ 714. Civil liability from sales of securities
A. Any person who violates R.S. 51:712(A) shall be
liable to the person buying such security, and such
buyer may sue in any court to recover the consideration paid in cash or, if such consideration was not paid
in cash, the fair value thereof at the time such consideration was paid for the security with interest
thereon from the date of payment down to the date of
repayment as computed in R.S. 51:714(C)(1), less the
amount of any income received thereon, together with
all taxable court costs and reasonable attorney’s fees,
upon the tender, where practicable, of the security at
any time before the entry of judgment, or for damages
if he no longer owns the security. Damages are the
amount which equals the difference between the fair
value of the consideration the buyer gave for the
security and the fair value of the security at the time
the buyer disposed of it, plus interest thereon from the
date of payment to the date of repayment as computed
in R.S. 51:714(C)(2).
B. Every person who directly or indirectly controls a
person liable under Subsection A of this Section, every
general partner, executive officer, or director of such
person liable under Subsection A of this Section, every
person occupying a similar status or performing similar functions, and every dealer or salesman who participates in any material way in the sale is liable jointly and severally with and to the same extent as the
person liable under Subsection A of this Section unless
the person whose liability arises under this Subsection
sustains the burden of proof that he did not know and
in the exercise of reasonable care could not have

91a
known of the existence of the facts by reason of which
liability is alleged to exist. There is contribution as in
the case of contract among several persons so liable.
C. (1) No person may sue under this Section more
than two years from the date of the contract for sale or
sale, if there is no contract for sale. No person may sue
under this Section:
(a) If the buyer received a written offer, before
suit and at a time when he owned the security, to
repay in cash or by certified or official bank check,
within thirty days from the date of acceptance of such
offer in exchange for the securities, the fair value of
the consideration paid, determined as of the date such
payment was originally paid by the buyer, together
with interest on such amount for the period from the
date of payment to the date of repayment, such interest to be computed in case the security consists of an
interest-bearing obligation, at the same rate as provided in the security or, in case the security consists of
other than an interest-bearing obligation, at the applicable rate of legal interest, less, in every case, the
amount of any income received on the security, and:
(i) Such offeree does not accept the offer
within thirty days of its receipt or
(ii) If such offer was accepted, the terms
thereof were complied with by the offeror;
(b) If the buyer received a written offer before
suit and at a time when he did not own the security to
repay in cash or by certified or official bank check,
within thirty days from the date of acceptance of such
offer, an amount equal to the difference between the
fair value of the consideration the buyer gave for the
security and the fair value of the security at the time
the buyer disposed of it, together with interest on such

92a
amount for the period from the date of payment down
to the date of repayment, such interest to be computed
in case the security consists of an interest-bearing obligation at the same rate as provided in the security or,
in case the security consists of other than an interestbearing obligation, at the applicable rate of legal interest, less, in every case, the amount of any income
received on the security, and:
(i) Such offeree does not accept the offer
within thirty days of its receipt or
(ii) If such offer was accepted, the terms
thereof were complied with by the offeror;
(2) Provided, that no written offer shall be effective
within the meaning of this Subsection unless, if it were
an offer to sell securities, it would be exempt under
R.S. 51:709 or, if registration would have been required,
then unless such rescission offer has been registered
and effected under R.S. 51:705. Any person who is paid
for his security in the amount provided by this Subsection shall be foreclosed from asserting any remedies
under this Part, regardless of whether the other requirements of this Subsection have been complied with.
D. Every cause of action under this Part survives the
death of any person who might have been a plaintiff or
defendant.
E. Nothing in this Part shall limit any statutory or
civil right of any person to bring action in any court for
any act involved in the sale of securities or the right of
this state to punish any person for any violation of any
law. The attorney general and each of the district
attorneys throughout this state, with regard to violation of this Part in their respective districts, shall lend
full assistance to the commissioner in any investiga-

93a
tions or prosecutions that the commissioner may deem
necessary under the provisions of this Part.

